<html>
<title> - THE STATE OF THE NATO ALLIANCE</title>
<body><pre>[Senate Hearing 107-16]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 107-16

                     THE STATE OF THE NATO ALLIANCE

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON EUROPEAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 27, 2001

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                   U.S. GOVERNMENT PRINTING OFFICE
71-538                     WASHINGTON : 2001



                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
CHUCK HAGEL, Nebraska                PAUL S. SARBANES, Maryland
GORDON H. SMITH, Oregon              CHRISTOPHER J. DODD, Connecticut
CRAIG THOMAS, Wyoming                JOHN F. KERRY, Massachusetts
BILL FRIST, Tennessee                RUSSELL D. FEINGOLD, Wisconsin
LINCOLN D. CHAFEE, Rhode Island      PAUL D. WELLSTONE, Minnesota
GEORGE ALLEN, Virginia               BARBARA BOXER, California
SAM BROWNBACK, Kansas                ROBERT G. TORRICELLI, New Jersey
                                     BILL NELSON, Florida
                   Stephen E. Biegun, Staff Director
                Edwin K. Hall, Democratic Staff Director

                                 ------                                

                    SUBCOMMITTEE ON EUROPEAN AFFAIRS

                   GORDON H. SMITH, Oregon, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
LINCOLN D. CHAFEE, Rhode Island      PAUL S. SARBANES, Maryland
CHUCK HAGEL, Nebraska                CHRISTOPHER J. DODD, Connecticut
                                     PAUL D. WELLSTONE, Minnesota

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Asmus, Dr. Ronald D., senior fellow, Europe Studies, Council on 
  Foreign Relations, Washington, DC..............................    27
    Prepared statement...........................................    32
Clark, General Wesley K., (USA-Ret.) former Supreme Allied 
  Commander Europe...............................................     5
    Prepared statement...........................................     7
Gedmin, Dr. Jeffrey, resident scholar and executive director of 
  the New Atlantic Initiative, American Enterprise Institute, 
  Washington, DC.................................................    19
    Prepared statement...........................................    23

                                 (iii)

  

 
                     THE STATE OF THE NATO ALLIANCE

                              ----------                              


                       TUESDAY, FEBRUARY 27, 2001

                               U.S. Senate,
                  Subcommittee on European Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:40 a.m. in 
room SD-106, Dirksen Senate Office Building, Hon. Gordon Smith, 
(chairman of the subcommittee) presiding.
    Present: Senators Smith and Biden.
    Senator Smith. Good morning ladies and gentlemen. We 
convene this subcommittee hearing on European Affairs, and our 
purpose today is to take stock of the NATO Alliance and to 
examine the objectives that should define its agenda over the 
coming years.
    It is an appropriate time to examine these issues here in 
Washington. We have a new Congress, a new President and in 2 
years the Alliance will convene a summit meeting in Prague. It 
is essential to define today what the Alliance can and should 
do during this period to further the vision of Europe that is 
undivided, free and secure.
    We have with us today two very distinguished panels to 
address these questions. The first panel will feature General 
Wesley Clark, a man who truly needs no introduction to this 
chamber. As the Supreme Allied Commander from July 1997 to May 
2000--one of the Alliance's most crucial periods--he served as 
NATO's top military officer. General Clark presided over the 
enlargement of the Alliance, participated in the revision of 
NATO's strategic concept, its basic security document, 
commanded NATO forces during Operation Allied Force and oversaw 
NATO's peacekeeping missions in Bosnia and Kosovo.
    The second panel will consist of Dr. Jeffrey Gedmin of the 
American Enterprise Institute where he directs the highly 
influential New Atlantic Initiative, and Dr. Ron Asmus, from 
the Council on Foreign Relations. Ron served as the Deputy 
Assistant Secretary of State for European Affairs from 1997 to 
2000.
    All of our witnesses are well-qualified to address this 
morning's subject and I appreciate their willingness to share 
their views with each of us this morning.
    I can think of no relationship more crucial to America's 
national security than our partnership with Europe with the 
NATO Alliance as its institutional cornerstone. It is our 
Nation's most important global relationship. When working 
together, America and Europe constitute a partnership that is 
globally dominant in all key respects, economically, 
politically, and militarily.
    As we look back at the last decade, we can firmly state 
that the Alliance has been a stunning success. It began the 
decade by winning the cold war. It has expanded the zone of 
peace, cooperation and democracy in Europe through NATO 
enlargement and the Partnership for Peace. It effectively used 
its military might to check the carnage and the brutality the 
regime of Slobodan Milosevic was inflicting upon peoples of the 
former Yugoslavia.
    As NATO enters a new decade I believe that our new 
President faces an equally challenging task.
    Despite the Alliance's success President Bush will have to 
renew the confidence of our European allies in American 
leadership and in the role that NATO must play in transatlantic 
security affairs.
    Regrettably, ongoing efforts to create within Europe, a 
security identity and capability separate from the Alliance, 
could, and I do emphasize could, adversely affect NATO's 
ability to exercise effectively that central role. It is, 
therefore, imperative for the United States and its allies to 
ensure the European Security and Defense Policy [ESDP], if it 
must go forward, evolves in a manner that is fully integrated 
with NATO and does not become, in essence, a decoupling impulse 
in transatlantic affairs.
    A second priority of the new administration must be to 
convince our European allies for the need for shared missile 
defenses, thereby making missile defenses an initiative that 
reinforces transatlantic solidarity. I have been impressed with 
both Mr. Bush's commitment to missile defense and by his 
commitment to engage and consult our allies fully on this 
matter.
    Our allies must not forget that NATO's security has been 
assured for over 50 years largely due to the U.S. commitment to 
sustain a technological advantage over its adversaries. When 
Europeans ask the United States to forego this technological 
edge on the battlefield, they risk jeopardizing both Allied 
security and Allied cohesion.
    Finally, one of the most important pillars of the European/
Atlantic relationship has been the unifying vision of a Europe 
undivided, democratic and secure. Translating this vision into 
reality is the best way to ensure peace and stability in the 
transatlantic arena.
    A Europe divided into two tiers of security and economic 
prosperity, one secure and rich, the other unprotected and 
poor, is a recipe for instability and conflict. For this 
reason, the declined momentum of NATO enlargement over the last 
three and a half years has been worrisome. At the last summit 
the Alliance stalled the enlargement process even though at 
least one candidate country, such as Slovenia, and perhaps 
others met the standards set by the newest and even some of the 
older members of the Alliance.
    Consequently, the Alliance's open door policy today stands 
on wobbly legs. Procrastination is no longer a sufficient 
alternative to invitations; and, NATO's open door policy will 
not be credible in the absence of invitations at the Alliance's 
2002 summit.
    I strongly endorse the efforts of the Vilnius Nine, the 
nine Central European democracies seeking NATO membership, to 
renew the momentum behind NATO enlargement. I challenge our new 
administration to lead the effort to build a new and powerful 
consensus in support of enlargement.
    And, I challenge our European allies to support vigorously 
and to work to achieve the inclusion of new members into NATO. 
It is my hope that no later than NATO's next summit, the 
Alliance will issue membership invitations to those Central 
European democracies which are ready to make a net contribution 
to its security and responsibilities. Let me underscore one 
critical point, when the Alliance makes its determination as to 
which states to invite to accession negotiations, it is 
imperative that the Baltic states be assessed with the same 
criteria as are applied to any other European democracy. Indeed 
it is my firm belief that the Alliance can only benefit from a 
Baltic dimension within its ranks.
    To conclude, I cannot think of a more important step 
designed to enhance transatlantic security and reaffirm the 
commitment of the United States and our European allies to the 
transatlantic Alliance than to bite the bullet on the issue of 
enlargement.
    Now before turning to our distinguished panelists, it's a 
privilege to be seated here with my friend and colleague from 
Delaware, Senator Biden.
    Senator Biden. Thank you, Mr. Chairman and Mr. Chairman, I 
share your view about the quality of this panel and I think our 
first witness, to use an overworked phrase in this place, is a 
great American. He knows more about NATO, at least in my view, 
and is more qualified to speak to it than anyone we could have 
before us today. Ron Asmus has also played a very key role in 
this country's alliance matters. He was one of, as you point 
out, the Clinton administration's main architects of NATO 
enlargement and today, Poland, the Czech Republic and Hungary 
are productive members of the Alliance in no small part because 
of his effort. He also helped negotiate the relationship 
between NATO and the ESDP, the EU's European Security and 
Defense Policy. Our third witness has also been an important 
player in the nonprofit world, directing the New Atlantic 
Initiative of the American Enterprise Institute. Jeff has been 
someone we have called on more than once here in this committee 
and I am delighted that he is willing to come back.
    Mr. Chairman, it is a cliche to say that NATO is the most 
successful alliance in history, but it is a cliche that is both 
true and worth repeating, because I fear that many of our 
colleagues underestimate NATO's importance and the need for a 
continued American leadership to keep the Alliance strong. I 
don't think you will be offended if I say General Clark and I 
had a brief word prior to the start of the hearing. I have 
attended so many conferences over the last 28 years on whether 
NATO is in trouble, is there a crisis?
    I haven't paid much attention to the alarm bell sounded by 
many for the last couple of years. I do think there is a mood 
change, both here and in Europe, that I think is not 
particularly healthy, about the need for NATO, the composition 
of NATO, and the relationship of NATO to any European 
initiatives. I am concerned that some of the initiatives that 
individually, are arguably well-founded, but taken in the 
aggregate, raise more problems for our relationship with NATO.
    The new administration has been less than enthusiastic in 
at least its verbal assertions relative to KFOR and SFOR and 
our involvement in the Balkans. The only talk that has taken 
place thus far has been talk that related to diminishing our 
involvement. Although that has not occurred since the President 
has been sworn in, as my recent trips to the Balkans 
demonstrated, people are literally waiting with bated breath to 
find out what this administration is likely to do.
    And indicated to you to before, Mr. Chairman, I hope in 
their assessment and reassessment of our position that is 
underway that they speak sooner than later because silence is 
getting almost as dangerous as assertions of drawing down our 
forces. The ESDP is obviously another concern that you 
mentioned for NATO, and that comes from the other side of the 
Atlantic. Until recently I had not worried too much about it 
because the Europeans' track record in meeting defense 
commitments has been on the whole somewhat wanting. But I think 
they set their headline goals at a low enough level that they 
will be able to meet those goals, and appear to have made some 
significant change in their security circumstance without 
having done so.
    What worries me is first, coordination between NATO and 
ESDP and second, that meeting these headline goals will exhaust 
the will of the parliaments in those countries to meet the 
Defense Capabilities Initiative, which they signed onto a 
couple years ago. Put differently, I can foresee NATO in 
several years having a technological gap between the United 
States and almost everyone else that could widen to the point 
where we would be the only member capable of 21st century war-
fighting, while the Europeans would be relegated to 
peacekeeping operations. It seems to me that it wouldn't be a 
very healthy alliance, and not one that would provide a lot of 
cohesion in the next two decades.
    So in addition, the President moving very cautiously--to 
his credit--on his commitment to national missile defense it 
yet is another area of stark division at least at this point 
between the United States and Europe as well as the deafening 
silence about our open door policy on expanding NATO further. 
There's a lot of reasons for us to pay attention to what our 
witnesses have to say today because I will conclude by saying 
there are even some on this side of the Atlantic, in this body, 
who question the preeminence of NATO as the building block upon 
which most of our strategy is built.
    We hear time and again, some of our colleagues talking 
about the fact that the combined GDP of Europe is larger than 
the United States. Shouldn't they do more and shouldn't we be 
less involved and so on and so forth. There's really a quiet 
debate going on in this country about whether or not we are and 
should remain a Europe power. It's the single most important 
debate we are going to undertake and I pray God that it is 
resolved in the direction that we must, we must remain a 
European power. I don't know how you could do that without men 
and women in uniform on the ground, and in an organization that 
is viewed as vibrant and relevant by our European friends.
    But, although there's much more to say, there's much more 
to listen to, and so what I will do is cease and desist at this 
moment, Mr. Chairman, and look forward to hearing from our 
three witnesses.
    Senator Smith. Thank you very much, Senator Biden. And 
General before we turn the mike to you, I would like to 
recognize three individuals who are with us today that deserve 
recognition. First is Jean Kirkpatrick, who is on the front row 
behind us. I think everyone knows her role in our country's 
history over some important foreign policy issues. She was the 
U.S. Permanent Representative to the United Nations holding the 
rank of a Cabinet member in the Reagan administration. She is 
also known for her frank defense of the interests and values of 
the United States and the West in that post. And, she was also 
one of the first to publicly call for the enlargement of NATO's 
membership and has been an advocate of additional expansion. We 
welcome you Madam Ambassador to this hearing.
    Also from abroad we have two guests from Romania. The 
Minister of Defense, Ioan Pascu, we welcome you, sir and also 
the Romanian National Security Advisor to the President, Ioan 
Talvic. We welcome both of you gentlemen here.
    General Clark, the mike is yours. We're anxious to learn 
from you.

  STATEMENT OF GENERAL WESLEY K. CLARK, FORMER SUPREME ALLIED 
                        COMMANDER EUROPE

    General Clark. Thank you very much, Mr. Chairman. Senator 
Biden, thank you for the opportunity to testify here today 
concerning the state of NATO and the challenges ahead as we 
look forward to the 2002 summit. I have prepared a written 
opening statement, which has been submitted and I won't go 
through all of that, but let me just say first, I'm very 
grateful to the members of the subcommittee for the support 
that they have given to me personally and for their support for 
the many achievements of NATO over the past decade.
    I think the members of this subcommittee and the leaders in 
the U.S. Congress and the Senate need to take credit also for 
the many achievements of NATO. I think NATO has proved itself 
over the decade of the 1990's probably to be the most adaptive, 
innovative and responsive of the many multinational and 
international institutions. We've reached out to former 
adversaries in Partnership for Peace and in Permanent Joint 
Council on NATO Enlargement.
    We've created a new strategy and a command structure. We 
created new forces and capabilities and when necessary NATO 
acted in Operation Deny Flight and in the implementation force 
for the Dayton agreement and again Operation Allied Force and 
KFOR to operate Kosovo and prevent ethnic cleansing there. 
Today we remain engaged on the ground. But I do feel that NATO 
is at a crossroads today, a crossroads that emerged at the end 
of Operation Allied Force. And we have not moved effectively 
off that crossroads yet.
    The source of the challenge is diverging interests, Europe 
and the United States, or at least a perception of those 
interests. On the one hand European statesmen profess a desire 
to follow through on their vision of an integrated united 
Europe. They wanted to have a common foreign security policy 
and how can they have that policy without some means to 
implement it? And on the other hand they profess allegiance to 
NATO as the primary institution for collective defense in 
Europe on this side of the Atlantic, as Senator Biden 
referenced, there are still questions.
    I personally believe that the United States must anchor its 
security in the strongest possible partnership with Europe, but 
there are many who believe that we have interests elsewhere, 
interests what would be sufficient to justify reducing our 
obligations and commitments to Europe and broadening it looking 
elsewhere, westward or southward, or in some way reducing the 
perception of the United States as a European power. And these 
sets of perceptions are being played out in the discussion of 
the European Security and Defense Program.
    I think that greater European contributions to their own 
security and defense are a political imperative on both sides 
of the Atlantic. But what is at issue is how this will actually 
be managed, and what it means. The discussion thus far has been 
primarily at the technical level, but the technical discussions 
are masking some fundamental political divergences. The 
technical discussions have been about transparency and whether 
the European Union would begin discussions on security issues 
without sharing those discussions with NATO. They have been 
about planning structures and whether the European Union would 
have its own command and staff organizations that could help 
plan and do estimates to inform policymakers or would they rely 
on NATO command and staff planning organizations.
    But these mask a fundamental policy problem, I think for 
the United States and for Europe, and if it could be dealt with 
at the political level, we would be so much stronger. The 
fundamental question at the political level is whether the 
United States will be there, in Europe, when there are security 
challenges. Will we be there? If we will always be there, then 
really what is the need for the European Security Rapid 
Reaction Force. And on the other side, the question to the 
Europeans has to be, will you really rely on NATO first? In all 
matters of security? Do you really mean it when you say that if 
NATO acts then there is no need for the European Union to act 
separately?
    It is always said with the assumption that it would be the 
United States, which would prevent NATO from acting, but of 
course NATO is an Alliance of 19 sovereign nations. Any one of 
these nations could, in some particular case, determine that it 
is not in their interests or in the interest of others in 
Europe that NATO would be in charge and they could block a NATO 
as well as the United States. So there is this fundamental 
issue. This is an appropriate time for a new political 
understanding, transatlantic, which would see Europeans and 
Americans renew the pledge that they are bound together in 
defense and in security issues, that together we can move the 
world and separately we cannot.
    And so, that is the fundamental crossroads that we are at. 
Now, appreciating this crossroads and working with it is 
complicated by three other issues. First, we have got to deal 
with the Balkans. That is where we are operationally committed. 
NATO has to succeed. Succeeding there means American leadership 
and that means keeping the United States committed not only in 
policy, but also on the ground. Second, we've got to deal with 
the issue of missile defense. Missile defense is a divisive 
issue in the Alliance, but I think it is wrong to suggest that 
missile defense is a tradeoff for ESDP, as some have: ``If you 
accept our American national missile defense, we will accept 
your ESDP.''
    No, these aren't tradeoff issues. These are each 
fundamental issues that need to be understood. I think the 
United States is going to go ahead with missile defense, but I 
think that missile defense has to include protection for 
Europe. I think it has to include European participation. I 
think it has to be connectable to broader frameworks and I 
think there has to be a strong, complete case made for the 
movement into missile defense, including both why we need it, 
what the technologies are and their capabilities and finally, 
what is the structure of global, strategic stability that we 
seek to gain by moving in this direction?
    And finally, there is the question of NATO enlargement and 
our relationship with Russia. I do believe that NATO 
enlargement is the issue that the Alliance must face before the 
summit in 2002. The promises are no longer enough. We got 
through the 1999 summit with the promise of the open door. Now, 
nations in Eastern Europe expect to be invited to join. The 
promise of NATO membership is the strongest positive incentive 
that we can offer these nations for reform, for Westernization. 
NATO membership is the strongest action we can take to project 
stability and security eastward. So I think it is time that the 
Alliance moved forward on this issue. There are a number of 
arguments in favor of it. There are some against it. I have 
outlined many of these in my prepared statement, but I come 
down on the need to enlarge NATO and I think that an 
enlargement should move forward with the states that seek NATO 
membership, and it should include a Baltic dimension.
    Thank you, Mr. Chairman.
    [The prepared statement of General Clark follows:]

             PREPARED STATEMENT OF GENERAL WESLEY K. CLARK

                   nato: facing the challenges ahead
    Mr. Chairman, Senators, thank you very much for the opportunity to 
testify today concerning the state of NATO, and the challenges ahead as 
we look toward the 2002 Summit.
    Since departing Supreme Headquarters Allied Powers Europe in May, 
2000, I have continued to follow the issues associated with NATO, 
Europe and our security challenges in the region, and have also had 
opportunity to reflect upon many of the circumstances and challenges 
ahead. It is privilege to share these thoughts with the Committee.
    NATO today is at a crossroads. At stake is its prominence in Trans-
Atlantic security issues and, ultimately its future. This crossroads is 
formed by the convergence of a changing European environment and 
changing US strategy. This is not the first time that NATO's future has 
been in doubt, and once again, some observers are pointing out the 
differing interests of Allies separated by the Atlantic. Once again 
pundits are finding issues of such potent political significance that 
they could shake the Alliance off its foundations. And, once again, the 
issues are complex, nuanced, and in some ways relatively abstract.
    At the end of the Cold War, NATO lost its potential adversary, the 
Soviet Union. With the end of the Soviet threat, and the relentless 
growth of Soviet military power from which it was derived, many 
observers questioned the rationale for NATO's existence. In Europe, 
long time Gaullists and other, revived their dreams of a Europe free of 
superpower influence, or at least, domination. Some in positions of 
authority indicated to American policy makers that henceforth, 
Europeans demanded the right to take greater control of their own 
European matters. As these sentiments were emerging, Yugoslavia was 
breaking apart in civil war and aggression. Several of our European 
allies found themselves committed on the ground in former Yugoslavia 
with significant elements of their armies under the United Nations 
aegis engaged in a difficult peacekeeping mission.
    At the same time the United States was more or less content to sit 
back and watch the European and UN effort struggle with the hard 
realities of Balkan strife. We were fascinated by the potential and 
risks of democratization and reform in the newly independent states of 
the former Soviet Union. Moreover, some were citing the 1990's as the 
time to reorient the U.S. focus westward, recognize our growing 
interests in the Pacific, and strengthen the U.S. economic and security 
presence there. Others were simply reacting to the end of the Cold War 
and the thirst for a peace dividend by encouraging the United States to 
reduce its overseas commitments and deployments.
    Consequently, in 1992, consistent with the spirit of European 
integration expressed in the European Treaty at Maastricht, the EU also 
adopted the so-called Petersburg tasks as the capabilities required 
from a European security and defense force. These tasks ranged from 
simple humanitarian operations to difficult problems of peace 
enforcement well beyond the aggregate capabilities of European forces 
at the time.
    During the early years of the Clinton Administration, as our Allies 
struggled with the situation in the Balkans, we made clear our 
reluctance to shoulder similar burdens on the ground with them, giving 
strong ammunition to those who sought to argue that in the wake of the 
Cold War, the Americans could not be depended on to help resolve every 
problem of European security. It was only as the UNPROFOR mission began 
to fail in Bosnia that we accepted the obligation through NATO to 
assist our allies on the ground, if they needed to extract their 
forces. Subsequently, then, we found the will to commit up to 25,000 
U.S. troops alongside our Allies in helping to enforce the Dayton 
agreement for Bosnia.
    But by then the momentum for greater European influence had begun 
to build, and the notion of a European Security and Defense Identity 
became embedded in NATO at the 1996 Berlin Ministerial meeting. In the 
1996 formulation, the ESDI was recognized as ``separable but not 
separate'' forces and elements. A specified set of duties for the 
European Deputy Supreme Allied Commander Europe was mandated, duties 
which would enable him to become the strategic or operational commander 
for a European-only operation. And underlying this effort was the 
phrase ``should the Alliance as a whole not be engaged.'' As some 
Europeans interpreted it this was the code for the U.S. to be able to 
opt out of European efforts.
    Sure enough, in 1997, as chaos descended on Albania following the 
collapse of a pyramidal investment scheme, there was a requirement for 
a force to enter to help stabilize the situation. The U.S. and other 
Allies agreed that the Alliance would not supply this force. The 
European force was not ready. Therefore the coalition force that 
entered Albania in Operation Alba was almost totally Italian and was 
under Italian command. But the signal had been sent again: the U.S. 
would not always participate in crisis situations in Europe.
    With the implementation of the European common currency imminent, 
the United Kingdom leaders met with the French at St. Malo in December, 
1998, and announced their intent to accelerate effort to implement a 
European-only force. This agreement was occurring as the United States 
was pushing the establishment of the Defense Capabilities Initiative, a 
major NATO effort to reinvigorate the force goals--force planning 
process after the defense cutbacks of the early 1990's. Even before the 
Kosovo air campaign, it was a political imperative on both sides of the 
Atlantic that the Europeans had to do more to strengthen their own 
defensive capabilities.
    Conflict in Kosovo, and NATO's Operation Allied Force further 
heightened public appreciation of Europe's lack of modern air to air 
and air to ground capabilities, as well as deficiencies in intelligence 
gathering, strategic communication, and logistics. The conflict also 
generated intense transatlantic tensions due to differing interests and 
strategies for the conflict, although NATO demonstrated remarkable 
cohesion and succeeded in imposing its conditions on Yugoslav President 
Milosevic the tensions lingered. For the first time, in the aftermath 
of the war, we saw European aspirations for an independent force 
expressed following the European Summit at Cologne in July, 1999.
    After concerns were raised, many Europeans pulled back somewhat 
from the ambitions laid out at Cologne. But by December, 1999, at the 
Helsinki Summit, the European Union adopted the headline goal of a 
60,000 strong deployable European only force. Major issues surrounding 
the force were left unanswered, but for the first time it was a mark on 
the wall. To many Europeans the rhetoric associated with the 
announcement of the headline goal was essential in persuading their 
publics to support the necessary additional defense resources. But not 
a few commented privately that it was the start of something more, a 
European capacity to act independently of NATO, in pursuit of Europe's 
Common Foreign and Security Policy. There was even quiet talk in some 
of the smaller countries that this might be the start of a European 
Army.
    Over the past year, as NATO troops have remained engaged in Kosovo 
and Bosnia, much of the intellectual energy of the Alliance has been 
distracted by the need to reconcile the sometimes competing agenda of 
greater European integration in the security area with the recognition 
that NATO is and must remain for the foreseeable future the preeminent 
institution for European Security and Defense. Currently, the European 
force has been defined to include sufficient staying power for one 
year's deployment, so that well over 100,000 troops will be needed. 
Arrangements are also being made to provide the kinds of specialized 
police units, like the Italian Carabineri, necessary to assist in the 
projection of law and order in emergencies, and various discussions are 
underway to augment European intelligence collection and logistics 
capabilities. In eleven EU countries, defense budgets are or are 
projected to increase in nominal terms. And European leaders, 
especially the EU High Commissioner for the Common Foreign and Security 
Policy Dr. Javier Solana has repeatedly assured that NATO will be 
called on first when there is a crisis. Only if NATO chooses not to 
become involved will the EU act independently, he has said.
    While additional capabilities are most welcome, concerns remain 
about how these European capabilities can be reconciled with NATO. Will 
NATO be included in all the security dialogue on a transparent basis 
from the outset? Or will circumstances conspire to present NATO with an 
emerging crisis to which it must respond but could have headed off with 
prior engagement? Will the European Union build up redundant planning 
capabilities, which confound the ability to respond effectively in a 
crisis? Or will the EU be content to rely on the NATO planning 
procedures in order to facilitate common appreciation of emergent 
situations? And what if it is not the U.S. but a European power, which 
desires that NATO not be engaged in meeting a security challenge early 
on and thus blocks consensus for NATO action?
    While these discussions have continued at a largely military-
political-technical level they have masked a growing unease at the 
political level. The fundamental questions on which the Alliances 
future depends are these: Will the European Union truly make NATO its 
institution of first choice for meeting European security needs? Will 
the U.S. pledge, and follow through, always to participate when there 
is a security challenge to Allied interests? If the answer to either of 
these questions is, no, then further problems for the Alliance are 
inevitable.
    As NATO has been working the intricacies of the institutional 
relationships, other issues also need tending. Among these are the 
continuing NATO engagement in the Balkans, the European response to the 
U.S. decision to proceed with a limited Missile Defense, and the 
question of further enlargement of the Alliance.
    NATO's continuing operational challenge in the Balkans is the most 
urgent issue confronting the Alliance. In Bosnia, something more than 
20,000 NATO troops including 4,000 Americans remain engaged in the 
enforcement of the Dayton Agreement. Procedures are in place to assess 
progress, and in accordance with the completion of requirements, reduce 
the levels of forces in place. However, there is continuing European 
angst, in the wake of the election campaign, that the U.S. may 
peremptorily begin withdrawals of its forces there or otherwise reduce 
its levels of engagement.
    In Kosovo, the tensions associated with the bitter relationships 
between Albanians and Serbs continue, with a small number of hard-core 
fighters among the Albanians who seem determined to intimidate and 
expel the remaining Serbs and open a conflict in southern Serbia 
adjacent to Kosovo. The international presence there of some 37,000 
troops, including approximately 6,000 Americans, is vital to preserving 
stability in the province. The American role is particularly important, 
since the Albanians view the Americans as more supportive than other 
troops.
    In both areas the international community and NATO need to move on 
three general directions: first, to maintain the necessary troop 
dispositions and commitments (or as the Europeans have said, ``all in 
together, all out together''); second the NATO forces in both countries 
must continue to take an active role in maintaining security and 
supporting the civil implementation effort; and third, with the 
influence gained by the continuing commitment of American forces, the 
Administration must take the lead in insuring effective civil 
implementation. In Bosnia, this means disenfranchising and removing 
from office those opposed to the agreement, strengthening the 
institutions of the central government, moving effectively against 
crime, corruption and the war criminals, promoting the return of all 
refugees and displaced persons, and bringing the separate armed forces 
under unified civilian control. Bosnia-Herzegovina needs to become one 
independent state. In Kosovo, there is an urgent need to move ahead 
with province-wide elections and define a political process with 
Serbia, which will provide at least substantial autonomy, as well as 
democracy, to the province. The international community may well decide 
that it cannot close the door on eventual independence of Kosovo. But 
what it must do is generate movement toward political resolution at 
this time.
    The debate in Europe on the U.S. decision to proceed with a Missile 
Defense promises to be painful. To many Europeans the case for Missile 
Defense has simply not been made. Moreover, any discussion will meet 
counterarguments from Russia and the European left. A positive outcome 
to the ``consultation'' will require three essentials. First, a strong 
case must be made for the need for Missile Defense. It must include 
assumptions about the threat, discussions of technological 
capabilities, and consideration of the new shape of global strategic 
stability if missile defenses come into play. Second, Europe's defense 
and industrial needs must be taken into account in the eventual 
program. Europe must be protected, and European firms must receive 
technology and manufacturing contracts for the program as it proceeds. 
Conversely, however the European contribution to the program must be 
affordable. Third, the system must be ``connectable'' to other efforts 
elsewhere, to avoid creating the impression of drawing new lines in 
Europe.
    Finally, there is the question of enlarging NATO and the consequent 
impact on relations with Russia. The simple truth is that nations of 
Eastern Europe believe that NATO has promised enlargement, not merely 
``keeping the door open.'' NATO enlargement is perhaps the strongest 
positive incentive in Eastern Europe for reform and Westernization. But 
enlargement is a controversial question for the Alliance. Russia will 
not like to see NATO enlargement, especially not if it entails any of 
the Baltic countries, and though all Western political leaders insist 
that Russian objections will not prevent NATO from accepting any 
particular new member, Russian objections will no doubt remain a 
factor. There are also a number of other concerns raised by those who 
are skeptical of enlargement. Some suggest the prospective new members 
simply aren't ready militarily. Others cite their lack of the 
appropriate ``culture'' for membership in NATO. Still a third argument 
is to refer to Poland, Hungary and Czech Republic and cite the need for 
more time for the Alliance to absorb these new members.
    But NATO must be very clear-sighted in assessing the enlargement 
issue. We said explicitly for the first round that military readiness 
wasn't a substantial factor in the invitation to join. In fact, the 
three new members are all moving forward with their plans and 
adaptation, though not always as rapidly as some in NATO would like. 
Despite the anguished U.S. debate in 1997-98 about the cost of 
enlargement, the record shows that we have in fact paid nothing extra 
for the enlargement. And during the Kosovo air campaign the three new 
members bore their responsibilities bravely despite extraordinary 
difficulty. As for Russia, it will be time for the Alliance to act on 
its previous prescription that NATO enlargement, bringing peace and 
stability to Eastern Europe will actually benefit Russia.
    At the 2002 NATO Summit, it is my belief that NATO must invite new 
members, and these invitees must include a Baltic dimension of at least 
one Baltic country, perhaps more. Steering this issue will be the 
responsibility of the United States. European countries are more 
concerned about EU enlargement. Some have even suggested informally 
that Baltic state membership in the EU would provide these countries 
sufficient security as to obviate the need for NATO membership. Baltic 
leaders have clearly rejected that idea, noting that EU members of NATO 
still regard the Alliance as vital for their security. If NATO is to 
remain viable, reliance on the EU for collective defense arrangements 
must be avoided. So, too, must situations where NATO member forces 
might be drawn into commitments, which NATO would then have to address. 
NATO enlargement is thus critical to maintaining NATO's relevance and 
effectiveness, as well as American leadership in critical transatlantic 
security issues.
    NATO has served for over fifty years as the bedrock of stability 
and security in the EuroAtlantic region. It is an institution initiated 
and led by the United States. It remains for farsighted and courageous 
American leadership to steer NATO safely through the difficult issues 
ahead.

    Senator Smith. Thank you, General. I wonder how you respond 
to those critics of Baltic inclusion who say that Latvia, 
Lithuania, and Estonia would just be too much of a burden and 
an Article V commitment that we're not likely to keep? How do 
you respomd to that?
    General Clark. Well, I think there are three basic answers 
to this. First of all, we're not in a state of war today or 
near war with Russia. So, we have never said that military 
capabilities per se were the sine qua non for admittance into 
NATO. They are not.
    Second, there are those who would say that the European 
Union, if these countries are admitted, would take care of them 
and so they are not needed, but I can't imagine a crisis 
involving the Baltic states that wouldn't affect the security 
of Europe. And if it affects the security of Europe, it would 
affect the security, not only of European Union members, but it 
would affect American security as well. And so to me, the 
Baltic dimension is a necessary precondition for moving 
stability and security eastward in Europe.
    And finally, I think there are measures that these nations 
are taking to help secure themselves, to help defend themselves 
and I think that we can provide a very important psychological 
as well as physical dimension of security if we bring them into 
NATO, thereby helping promote stability in this region.
    We need to do this sooner rather than later. When I look at 
Russian actions and their desires to extend their definition of 
security--a zone of weak buffer states around them--and regain 
the preeminence of the former Soviet Union, then it gives a 
sense of urgency that we want to craft the outlines of European 
security and stability sooner rather than later. There is not 
so much to be gained by delay here.
    We have delayed. We have worked with Russian perceptions, 
and yet Russian perceptions have hardened anyway, partly for 
bargaining positions, partly because of their own domestic 
reasons, partly because the people in charge in Russia today. 
So the move of NATO with the Baltic dimension is essential to 
show the outlines of a peaceful, integrated, stable Europe, 
which can then draw Russia in, in a constructive fashion.
    Senator Smith. Speaking about Russia, what is your sense as 
to how it is evolving? Senator Biden and I were in Paris with 
President Clinton, when the NATO/Russia Founding Act was 
signed. I do not think Moscow has lived up exactly to the terms 
of that agreement. How do you assess the evolution of Russia 
and its future relationship with NATO? I have actually heard 
Russian officials express interest in NATO membership, but it 
does not seem like it is evolving that way. What is your 
thought on that?
    General Clark. I think the current leadership in Russia 
views its security very much in cold war terms. They look for a 
strategic sphere of influence. It is--they have never been 
reached by the wave of democratization, the openness that swept 
across Eastern Europe. These are people who still see things in 
traditional ways and are setting about reforming their security 
buffers. There is heavy-handed and underhanded intimidation and 
effort across Eastern Europe today to reestablish Russian 
influence, through the purchase of utility systems, or various 
private enterprises. I get reports of young men with bags of 
money showing up looking to buy into traditional arms 
industries and curry favor in some countries in Eastern Europe. 
We know what Russian threats have meant to Georgia for example. 
And so what we see is a broad pattern of Russia attempting to 
assert itself in a traditional way.
    Senator Smith. And that doesn't include joining NATO?
    General Clark. It does not include NATO. It's a 19th 
century balance of power, spheres of influence conception of 
security. It is out-of-date today.
    Senator Smith. Am I wrong, General, as we look at ESDP, in 
thinking that the fundamental ingredient that must be 
introduced is the integration of ESDP's command and control 
structure into that of NATO. If it is separate, we have got a 
problem and I think Senator Biden and I have a problem keeping 
support for NATO in the U.S. Senate, at least that's the way I 
see it evolving, but if they set it up within the NATO command 
structure, this could be a very workable thing. It does not 
seem to me that that is the way it is evolving. I wonder if 
that is your view as well?
    General Clark. Well, there's a tug of war going on inside 
the European Union today on what the outlines of ESDP will 
eventually turn into. There are some who are very candid in 
saying they want a European army. They want not only their own 
staff, but their own command and control and the ability to 
take independent operations. There are others who say that they 
want this to be a means of strengthening the Europeans' 
contribution to NATO. So, the outcome of that is going to be 
important, but I think regardless of how that turns out, I 
think the United States can shape this debate in important 
ways.
    The issue is whether or not we believe that we will always 
be there. I was at a recent security conference and discussed 
this issue with Javier Solana, who is the High Commissioner for 
the Common Security and Foreign Policy. I asked Dr. Solana, 
when do you--you say you will always come to NATO first. If 
that is the case, why would you ever then need a European 
security force if the United States is always going to be 
there? He said in 1997, you weren't there. Italy went into 
Albania alone. NATO would not participate, would not lead it. 
We have that to overcome. So it is not just a technical problem 
of who is in command. It is fundamentally a political problem 
of how committed are we to European security.
    Senator Smith. Senator Biden.
    Senator Biden. General, you talked about divergent and 
diverging interests in Europe. Talk to us a little bit more 
about that. What interests, from the European perspective, do 
you see as divergent? In other words, how are their interests 
diverging from ours in their view?
    General Clark. First, NATO as an alliance of sovereign 
nations. So every nation has its own individual interests, and, 
as you know, in Europe if you go from Britain to France to 
Germany to Italy to Spain, you will always hear the 
interpretation of events and the forecast of the future from 
that nation's interpretation. They are all a little bit 
different. There is a strong historical legacy among these 
countries, but I think what has emerged is there is a common 
interest in European integration.
    The European Union became as an economic organ that was 
designed to minimize competition and promote economic well-
being and preserve that the social structures that supported 
the democracies in these countries. It has moved into the 
foreign and security policy and in doing so it brings divergent 
European national interests and it is having a great 
difficulty. But just to name a few dimensions of differences, 
generally the Europeans don't agree with the American policy in 
the Persian Gulf. They would have favored a looser sanctions 
regime, more collaboration with the Iraqis, getting trade in 
and trying to work against the Iraqi regime by turning its own 
people against it through Westernization, a different view than 
we had.
    Generally, they are more sympathetic to the Palestinian 
cause than the Americans are. They take a different view toward 
Russia than the Americans do. And as a couple of people have 
told me, they are working very hard to bring Russia onboard. 
Russia is their neighbor and they want to be its best friend. 
So, these stresses and strains give them the incentive to have 
a common policy that is somewhat distanced from the United 
States.
    Senator Biden. I find it interesting that when I speak to 
American policymakers they point out that if the United States 
wishes to go forward with a major initiative that it is always 
able to essentially force its view on NATO, and is able to 
prevail. You hear that discussion now with regard to the 
national missile defense debate; that they will accept it, and 
they probably will if we insist. But one of the things that has 
concerned me off and on for the last 10 to 15 years has been 
that they may attempt leadership because it's unavoidable; 
because it's so obvious that we are so predominant.
    But I find an increasing respect for our judgment in Europe 
when you speak with our European counterparts. Not just in 
France, but in other countries as well, people are questioning 
our judgment and demonstrating an increasing unwillingness to 
follow that judgment. Iraq is an example that you pointed out, 
and Russia is clearly an example. Which leads me to, what I 
find to be a conundrum. We are trying to get the Europeans to, 
in effect, stay the course on a NATO that has worked very well 
for a long time in absence of an immediate threat.
    There is no concern today about the Fulda Gap being overrun 
and Western Europe falling. And so, as we try to deal with the 
diminished threat and the need, in our view, for a further 
cementing of this Alliance, we find divergent views on issues, 
for example enlargement.
    But, whether I am in France or Belgium or Spain or Italy or 
Germany talk of the Baltics becoming members of NATO is by and 
large very much at odds with their view of expansion and where 
it should take place, if any takes place. They view the Baltics 
as not defensible. They would be lost if there was a conflict 
very quickly, and they view it as a stick in the eye to the 
Russians, going back to our differing views as to how important 
it is to have the acquiescence of--or at least not the open 
hostility of--Russia.
    And so, I think it is going to be very difficult for any 
President from this point on, including this President, to meet 
the two requirements. First, How do you pull Europe together 
without us pulling out figuratively or literally, and yet 
pursue policies, which seem, on the surface, at odds with the 
consensus today among Europeans. You have talked about being in 
Germany at the conference a month or so ago. That was the first 
one I have missed in awhile, but the reports I got were there 
were very different views on everything from national missile 
defense, to Iraq, to the Middle East, to Russia, to expansion.
    I wonder whether you have any advice as to how this 
administration threads that difficulty? Let's assume we pass a 
resolution in the U.S. Congress saying to admit the Baltic 
States to NATO or at least one that is ready. I think one 
clearly is ready or very close. And we go on record as 
supporting a national missile defense although undefined and we 
attempt to maintain sanctions on Iraq. You sat there and 
negotiated with these folks for a long time. I watched you 
during the whole Kosovo undertaking. Talk to me about that.
    General Clark. Well, I think that all of the issues you 
cite are issues that potentially push Europe to take more 
seriously the European Security and Defense Policy. They are 
divergent interests, but that doesn't mean that the United 
States can't lead in addressing those issues. It's a question 
of how we lead and so my recipe for that is first, you have to 
have a general inclination of where you want to go. There is 
only so much diplomatic capital that you can expend. You have 
to figure out where to push hardest, then you have got to 
listen to their concerns and you've got to take their concerns 
into account.
    They have legitimate concerns on Russia. They do not want 
to see a return to polarization in Europe, nobody does, but the 
offsets to Russia cannot be given through NATO. They are from a 
broader context of international trade, international 
economics, reform and other issues that go beyond a strict 
security dimension. The United States has to offer some of 
those ideas to the Europeans if it says it is inclined also to 
seek Baltic membership.
    On national missile defense, the United States has to 
incorporate European concerns and reservations. European 
nations do not want a disruptive debate like occurred in the 
early 1980's on zero/zero option, to rip apart their domestic 
consensus today in favor of ESDI and NATO. So, we have an 
obligation, if we are going to move in this direction, to 
provide information, to provide ideas, to provide a framework 
in which our actions make sense--or our proposed actions make 
sense. In other words, we have got to have consultation and 
dialog, but I think that all of these issues are workable if we 
approach them that way, if we have a clear direction, if we are 
willing to have a give and take on the details and the timing 
and circumstances and if we have the ability to come forward in 
scenarios that are of concern to the Europeans. They want to 
see American leadership, but they also want to see respect for 
their own concerns. They have to see that and we have to give 
it to them.
    Senator Biden. My sense is, and I realize my time is up, 
that the last thing in the world that even the French would 
like to see is us decide that we wanted out of NATO. I mean 
they have been able to have it rhetorically both ways for a 
long time, but my time is up.
    Senator Smith. I would like to followup on that Senator 
Biden. I had occasion to go to make a speech at the Davos 
Conference in Switzerland and in connection with that trip, I 
had a French Minister tell me that they wanted ESDP because 
they wanted a European superstate and the European superstate 
needs a foreign policy and a foreign policy isn't meaningful if 
it isn't backed up by a military component and that's why he 
made the point ESDP's command structure must be outside of 
NATO. I have thought about that and wondered.
    Senator Biden. What did the Germans think about that?
    Senator Smith. If that is where it is going to go, I think 
that will undercut support for NATO in the U.S. Senate, and I 
just throw that out. That is my experience here, but if that is 
the case, do we not really need to rethink when NATO comes into 
play and it is not even a hypothetical. Take Bosnia for 
example, had this structure existed prior to American 
intervention in Bosnia, I do not know how President Clinton 
ever could have won support in the Senate to send forces into 
Bosnia as part of the NATO operation and it seems to me then 
NATO's role becomes strictly an Article V, tanks going throught 
the Fulda Gap kind of an organization and maybe that's where it 
is going to go. I do not know, but it just seems to me that 
those are the stakes that we are playing with because the 
details, as I understand the direction they are on, takes us 
apart. Am I wrong?
    General Clark. No, you are not wrong. That is why I say 
that we need to get this out of the technical details and up to 
the political level. The details keep taking us further and 
further apart. Where this ends up is with--it is what one of 
the Europeans said to me, well, do you not understand that is 
the difference between security and defense. In other words, 
you know let the European Union handle the problem when it is 
emerging and only if it blows up would you call NATO in, but 
you see that is what precisely we do not want to have happen.
    Senator Smith. Well, this Minister specifically said we may 
want to go into Rwanda, and we want the ability to do that and 
if they do, then that would be a specific problem, I think, if 
our country did not want to go into Rwanda.
    General Clark. The Africa case is the easiest case to 
justify a European collective force for, but if I could set 
that aside for a second and deal with the fundamental issue 
which you raised, take the case of a country in the Baltics 
that has been invited to join the European Union. Now if there 
is political turmoil there, if there is some pushing and 
nudging and some threats from across the border, would we 
expect the European Union to provide the security reassurance 
for that Baltic country? This is what I have been told by 
Europeans that they expect the European Union to do.
    Now, who would do this in the European Union? Would Britain 
and France send their troops, a small delegation, some 
observers to reassure people there and if they did, what would 
that say then about NATO? And if you think back to 1995 and how 
we got involved in Bosnia, it was because we had the troops of 
our NATO allies on the ground and in trouble and the President 
made the decision that, if they came to us and asked for a NATO 
plan to help them extract themselves in the failure of UNPROFOR 
that we would go in there with up to 25,000 American troops.
    And then the logic was, well if you are willing to do that, 
then why not use the American troops to stop the fighting and 
get a peace agreement? And so, we would find ourselves, in the 
case of the Baltics or some other region, in which the European 
Union were to lead in dealing with a crisis, then having to 
followup with NATO without the benefit of the NATO engagement 
in the first place to head off the crisis. And so to me the 
issue is not technical, it is more fundamental than that. It is 
that NATO enlargement must keep pace with the European Union 
enlargement. And every effort the Europeans make to strengthen 
their own forces is perfectly fine and welcome, but we should 
always be there with them when there is a security challenge 
and it should be dealt with through NATO and not the European 
Union.
    Senator Smith. As a practical matter, and I am going to 
turn it over to Senator Biden, but as a practical matter, 
Turkey has already raised an issue on this whole proposal. As a 
practical matter I do not see a real welcome mat for Turkey 
into the European Union so where does this go? I mean how do 
you reconcile these conflicting memberships? And frankly it is 
the only leverage Turkey has in the European Union is its NATO 
trump card. Maybe they need to work it out, but frankly if we 
undo NATO, I wonder if the discipline remains in Europe to 
preserve the rapprochement of these ancient hatreds?
    Let us say what happens when NATO is a diminished 
organization and Greece and Turkey have a problem, do they have 
a mechanism, a psychological mechanism of NATO to say, we have 
got to work this out, we are allies, we cannot go to war. Do 
those things become more probable. It just seems to me a whole 
world of new insecurities are developed when NATO's role 
declines. Am I wrong in that?
    General Clark. No, you are not wrong. I agree that we need 
to preserve and strengthen NATO's role in Europe. European 
nations need to do more and they can do more and some have said 
that the ESDP is only a mechanism for rallying the support of 
finance ministries and public opinion to help them do more for 
their defense. Well, that's well and good, but in that case, we 
need to be sure that it is strengthening NATO, not providing an 
alternative to NATO.
    Senator Biden. I have been somewhat cynical about this, 
General. At the time--I facetiously point out that you are to 
blame for this whole thing, but I want to explain how. One of 
the things I did not anticipate as a consequence of our 
significant show of capability in Kosovo was the extent of the 
embarrassment and resentment it caused in European capitals. I 
was stunned by how profound it was.
    I was at a closed meeting with a group of high-ranking 
members. As a matter of fact, I think Ambassador Kirkpatrick 
was there as well.
    It was in France. It was a group of Europeans and 
Americans, all NATO members, sending people to that particular 
conference, to discuss the Balkans and I facetiously said at 
the time that I think this should really be renamed the Three P 
program not the ESDIP--or ESDP and the three P's stand for 
procurement, procrastination and pride. Obviously that was 
offensive to some who heard it. All who heard it I suspect.
    But it seems to me that we may have had something start off 
here that may get out of hand because I really do not think 
that at the very outset, with the exception of some of the 
French, there is any idea or notion that there is going to be a 
totally independent European force capable of unity and capable 
of maintaining in a united Europe the military arm of the 
foreign policy of a united Europe. I think we're a long way 
from there.
    And I watch how the Italians and the Germans dance around 
the French and it is a fascinating little tribal dance that 
goes on, which is understandable, by the way. I sound like I am 
belittling it and I am not. There is a genuine desire to have a 
healthy environment in which Europeans can view themselves as 
Europeans, but there are still some stark differences that 
exist within Europe. The likelihood of this essentially 
European army to enforce a European foreign policy that is a 
result of a united Europe, may be a dream of some people. Maybe 
if it worked as well as it sounds, it would be a good thing, 
but I think we are a long way from there.
    What I find sort of creeping into this on both sides of the 
Atlantic is this notion that somehow this thing that started 
off at 50 to 60,000 rapid deployment forces might turn into 
something that is like taking the multiple National Guards in 
the United States of America, all brave and noble and 
participating in all our engagements and saying they are the 
totality of the U.S. military. Even if that were its desire to 
be this European military it is far from being able to fulfill 
that function.
    But back in 1998 there was a Defense Authorization Act we 
passed here and it had a provision in it that limited U.S. 
participation in a combined joint task forces to air, 
intelligence, and logistics--no ground forces. I am the only 
person who voted against that for that reason out of a hundred 
Senators. And the reason is that I see unintended consequences 
flowing from these discussions that on the surface do not have 
the capacity to meet the stated tasks and yet they are taking 
on a life of their own now, which takes me back to where I will 
end.
    My dad has an expression. My dad is 85 years old, very 
well-read man, high school-educated man and always interested 
in foreign policy. My dad made a comment to me, which I have 
heard him make a number of times over my lifetime, not too long 
ago when he came to listen to a speech I made with a group of 
real experts--myself excluded--at the University of Delaware on 
the Middle East. Afterwards, he said to me, ``Joe you know, if 
everything is equally important to you nothing is important.'' 
I hope this administration makes a judgment, a gradation of 
what they find to be the most important initiatives that are at 
odds with the consensus at the moment in Europe.
    I watched you have to work out compromises relative to 
bombing missions at the front end of the Kosovo undertaking 
that were necessary. The idea that you could just go in and say 
this is an alliance, but here is the deal. Chirac does not get 
to say anything. It does not work that way. So, this is the 
sort of heavy lifting we are heading into right now. We have 
had people, and not just because she is sitting there, like 
Ambassador Kirkpatrick and others in other administrations, who 
have understood the--a more global view of this.
    I had so many questions I would like to ask you, but I do 
not want to trespass more on your time. But I hope the message 
that comes out of what we are beginning to try to focus on here 
is that this is pretty complicated stuff and we are at a pretty 
dicey spot right now. In one meeting, I will not mention his 
name, a very high-ranking Frenchman during a real debate we 
were having about an issue in a closed meeting turned to me and 
said, ``well you imperialists.'' And I looked at this gentleman 
and said, I beg your pardon, I said I have not heard that since 
I met with Brezhnev as a young Senator. Imperialists? I am 
worried that the rhetoric is likely to escalate in a way that 
is not very helpful.
    I think we should be focusing on what it is that does unite 
us. And I think, for one, were I asked, I would suggest that 
there be an awful lot of spade work done with our European 
friends, individually, not just collectively, on what it is 
that we believe our priorities to be and why they are 
priorities. What we are willing to get in the line on, what we 
are willing to compromise on, and what we are willing to talk 
about. Like I have said, there are a lot of people in this 
body, and a lot of people in this country, as there are in 
Europe, who understandably think the danger has passed. The 
idea of us needing to be a European power is much less relevant 
than it was 10 years ago and moving toward greater irrelevance. 
That somehow, we should focus our attention on other parts of 
the world and so, I think this is going to take an awful lot of 
concentration.
    It has to be led by the administration. I am neither openly 
optimistic or pessimistic about this. I am anxious and waiting 
to see what priority they place on some of these things. But I 
will conclude by saying that you could not say, in my humble 
opinion, that we are going to reduce our troop presence in the 
Balkans. And, if Russia does not accommodate changes in the 
ABM, we will unilaterally abandon the ABM Treaty and at the 
same time, we are going to consider greater use of force in 
imposing sanctions in Iraq and somehow think you are going to 
get these other pieces taken care of. I am not suggesting that 
we should back off on what our interest is. I am suggesting 
that we should be cognizant of the fact that although I do not 
think NATO will break up tomorrow or the next day, I think this 
is all incremental. It is all incremental, but it is awful hard 
to staunch the bleeding once it starts. This is the first time 
in my career of 28 years of dealing with this, and I do not 
profess to be the expert that either you or Ambassador 
Kirkpatrick or our other witnesses are, but I have hung around 
long enough to know this one is real. This dilemma with NATO 
right now is real. It is not merely a matter of political 
theatrics, which we have observed off and on over the last 30 
years. I thank you for your time and knowing you as I do I am 
sure you are going to be available for us to pick your brain 
and seek your advice as this unfolds.
    General Clark. Yes, I will. Could I have just a word in 
response to that? I am concerned about the rhetoric and I do 
believe that in advance of the capabilities. The tenor of the 
discussions, the ideas that are advanced have a weight of their 
own in diplomatic affairs and that is why it is so important to 
get this dialog right. It seems to me the dialog has to have 
two fundamental tenants. No. 1, we do want the Europeans to do 
more. We welcome it. We encourage it.
    If it's a 60,000-man force that can go over there and stay 
for a year, that's wonderful, if you are going to add 
carabineri and gendarmerie capability, that's even better, if 
you want logistics and intelligence, great, all of that is 
important. Please do it. But second, that the United States 
will be there with Europe to deal with its security as well as 
its collective defense issues. We want to be consulted. We want 
to engaged. We believe NATO is the right forum and we, America, 
take you Europeans up on your pledge that if there is trouble, 
NATO will be the first institution turned to and if we follow 
on those courses, I think we can use this to strengthen NATO.
    Senator Biden. Mr. Chairman I have been very careful to 
give the new administration time and not be critical, in large 
part because they are just working their way through a lot of 
this. But that is also why I said I hope we do not remain 
silent too long on what value we place on NATO and what value 
we place on our participation, including ground forces, with 
NATO in the Balkans. I think that is the strongest message this 
President could send right now because literally everywhere I 
go in Europe they wonder what is going to happen. The question 
is, do we have reason to question whether you will be there and 
to them there is an immediate, precise example.
    It is the Balkans right now. There are folks there, so this 
can only come from the President. It cannot come from Congress. 
And I think that the President, as he gets his sea legs here 
and gets underway, there will be a very, very strong, 
unequivocal statement about us being a European power and that 
we plan on staying. NATO is a cornerstone and we're in to the 
end in the Balkans. I think that will do an awful lot to 
affect--presumptuous of me to say this--affect the debates in 
parliaments in other countries and with your former 
counterparts at the NAC.
    General Clark. I think that's exactly right.
    Senator Smith. Thank you, General. We appreciate your 
sharing your experience and perspective with us this morning. 
We are better for it. We will now call forward our second 
panel, which will be Jeff Gedmin and Ron Asmus. They have 
already been introduced. So, we will invite them to come 
forward and speak to us.
    Dr. Gedmin, we'll start with you.

STATEMENT OF DR. JEFFREY GEDMIN, RESIDENT SCHOLAR AND EXECUTIVE 
 DIRECTOR OF THE NEW ATLANTIC INITIATIVE, AMERICAN ENTERPRISE 
                   INSTITUTE, WASHINGTON, DC

    Dr. Gedmin. Thank you, Mr. Chairman. I thank you both and I 
thank the committee for the invitation. I too have a prepared 
statement, which I will submit for the record and I would 
summarize briefly for you. If I may start, I would like to try 
to tie a few things together. Senator Biden, you said that, 
according to the good wisdom of your father, if everything is 
equally important nothing is important and I think that that 
relates to something you said, Senator Smith at the beginning 
that we in the United States have had and continue to have or 
want to have, a preferred relationship or option for the 
Transatlantic Alliance. We have many alliances, many 
partnerships and they're all important, but this is 
particularly important to us and something I think is changing, 
Senator Biden. I think you are right. I think there is a mood 
change. That is the expression you used.
    I think that you can look at our behavior, our policies 
over the last decade and you can pick and choose areas where we 
have made mistakes and it has cost us capital and credibility, 
but I also think that regardless of what we have done or what 
we would do the conditions are changing and I cite three 
things. It is an objective fact that the cold war is over and 
they, our West European friends, are less dependent on us. I 
think that changes the quality of the relationship. Two, 
generations are changing. Well, they will always change. But 
the Helmut Kohl generation is gone. That generation that had 
this point of reference or orientation that had to do with 
airlift, care packages, Marshall Plan, that orientation that 
led them to believe or know when in doubt or conflict, the 
Americans were always on the right side and we stand by them. 
That orientation is gone and last, but not least, the European 
Union is a very different sort of animal.
    It has long ceased being a common market, but it is 
becoming increasingly political. So, where does that leave us? 
I just want to set up the brief comments that I make to you. I 
think the relationship is being renegotiated, especially from 
the West European side. And I think that we may be running into 
a conflict over visions, on what the relationship should look 
like in the future. Back to the great wisdom of your father, I 
was in Berlin recently at a conference, I objected, half-
jokingly, half-seriously, to the conference organizers for the 
language in the program. It frequently mentioned the world 
emancipation, ESDP, the Euro, et cetera, emancipation. I said 
we Americans have thin skin. That hurts us a little bit. Why do 
you feel like you need to be emancipated from us?
    I also objected, half-jokingly, half-seriously, to the 
conference organization that began at the top of the program 
with a panel on the European Union and North America, the 
second panel, the European Union and Russia, the third panel, 
the European Union and the Middle East. I raised my hand and I 
said well, that doesn't make us feel special. A German 
parliamentarian raised his hand and said, well, relax, we love 
you Americans. It's just a fact that we love others equally. 
And I said, we don't. We have a preferred option for the 
transatlantic relationship. It is a prism through which we see 
a lot of things important that we do within Europe and the 
world and if you are starting to view the relationship in 
different terms, we ought to have a very frank, candid, 
conversation about it now.
    Mr. Chairman, Senator Biden, four very brief points in 
summarizing my statement. Two points have to do with unfinished 
business in the Alliance and two about business ahead. First 
point, the Balkans, President Bush has signaled that he desires 
a change in policy. It may, mind you, even make sense to review 
policy for many reasons, including the fact that Mr. Milosevic 
is gone, but I would urge us to continue the following:
    No. 1, whatever we do in the Balkans, we view it in the 
context of our grand strategy toward Europe. Two, that we do 
not do anything that leads to or could reignite the crisis, 
including the reduction of our military commitments. Third, if 
we do consider reducing our military commitments, I think it 
would be a grave mistake if we did it in such a way that 
damaged our standing in the Alliance. General Clark said to me 
before we began today that in his view we cannot lead the 
Balkans and lead the Alliance and I think there is a lot of 
truth to that. And finally, I would just point out that we have 
intervened twice in the Balkans in a decade. We have invested 
billions of U.S. dollars and risked thousands of troops and at 
end of the day in my view some U.S. presence, we could argue 
how much and where and for what, but some U.S. presence is a 
modest overhead cost for a contribution to security and peace 
in the region. That is point one.
    Point two, unfinished business, that has to do with what we 
have already discussed this morning, NATO enlargement. It is 
the completion of Europe. You, Mr. Chairman said Europe whole 
and free, that is morally and strategically still important to 
us. If that is true I think we have a lot to do with the 
Western allies because there are some points of division. I 
think it is absolutely critical that each and every member who 
joins the Alliance should be qualified, should value and make 
the Alliance stronger.
    But I would also say, as I have said about the Balkans, 
that we ought to look at NATO enlargement in the context of our 
grand strategy toward Europe. And in this context I hope that 
we will consider, as conditions permit, the biggest round 
possible at the summit in 2002. I would also point out as a 
footnote that, as Zbigniew Brzezinski points out, that with all 
the problems and frictions that we have in the Alliance today 
NATO enlargement is still one project upon which we generally 
agree and I think that is important.
    But two points, Mr. Chairman, about business ahead. First 
missile defense, we have moved in this country toward a common 
assessment of the threat. President Bush has committed to 
moving forward with development and deployment of missile 
defense and I think that is exactly the right thing to do. Now 
I think the right thing to do is ask ourselves not that we move 
forward, but how we move forward because it ought to be done in 
the context of a healthy alliance that grows stronger and not 
weaker.
    There are many concerns that our West European allies have. 
One, and probably atop the list, is the Russians. Now sometimes 
I have to tell you, Mr. Chairman, I am curious what Russia, our 
West European allies are worrying about. As you know, the 
Russians proposed last week to work jointly on missile defense. 
It is not the first time. President Putin was already pitching 
a version of the idea last summer, but it is also true that 
when the Russians are not proposing to work together on missile 
defense, Moscow is spending inordinate amounts of time 
ridiculing the rationale for such a system.
    Defense ministry spokesmen have said that the true missile 
threat is actually nil, that U.S. threat scenarios represent a 
fantasy of American defense planners. And according to 
President Putin, not so long ago, the missile threat, and I 
quote, ``Which Americans mention does not exist today and will 
not exist in the foreseeable future.'' I think we do need to 
engage the Russians, but we should harbor no elusions about the 
mischief that the Russians are trying to conduct. And I think 
it is a welcome sign that many West European leaders from 
George Robertson at NATO to Joschka Fischer, the Foreign 
Minister of Germany, thus far have refused to be swayed by such 
mischievous Russian behavior.
    Still, I think there is a lot that we have to do. I think 
the United States needs to undertake a major campaign of 
engagement and public diplomacy with our allies to discuss 
missile defense and it should include in my view the following 
three issues: One, a continuing and robust conversation about 
our threat assessment. Two, an explanation of why we believe 
ballistic missile defense carries far more benefits than 
potentially harmful side effects. And finally, an explanation 
of how prudent steps toward ballistic missile defense will be 
compatible with sensible arms control and nonproliferation 
policies.
    I was disappointed, Mr. Chairman, that Prime Minister 
Blair, during his recent visit to Washington, did not take the 
opportunity to show leadership on the issue. I confess to you. 
I expected more from America's oldest and staunchest ally, not 
least of which because our new President Bush went out of his 
way it seems to me to offer a strong and clear support for a 
project near and dear to Prime Minister Blair's heart, and that 
is the European security and defense policy or the European 
Rapid Reaction Force.
    This is my final point, I will be brief, a few 
observations. I believe that now we should spend far less time 
debating the merits and modalities of the European Rapid 
Reaction Force. Not because it is unimportant, it is, but there 
are important items on the transatlantic agenda that deserve 
great attention, NATO expansion, missile defense. I would like 
to add a new approach to Iraq with the ultimate goal of 
removing the dictator Saddam Hussein from power. We have made 
our arguments about ESDP and Rapid Reaction Force, build 
capabilities, not just institutions, we have said. Pursue 
defense in a way that strengthens NATO and does not undermine 
the Alliance.
    But today, in my judgment, the debate has become overly 
acrimonious and unnecessarily counterproductive. I agree with 
Senator Biden, if I heard him correctly, that the debate to 
some measure is largely theoretical because we are still 
asking, will our European friends put up the money and build 
the capabilities? Now, Mr. Chairman, please do not 
misunderstand me. I continue to share reservations about the 
European defense project. You and Senator Helms wrote recently 
in a letter to the Daily Telegraph in London that you worried 
about, and I quote from your letter, ``The true motivation 
behind ESDP, which many see as a means for Europe to check 
American power and influence within NATO.'' I share this 
concern.
    When French President Jacques Chirac says, for example, 
that European defense will develop quote, ``In complete harmony 
with NATO.'' I ask what kind of NATO he and others are thinking 
about. Some of us believe that an effective NATO thrives on 
American leadership, that without this leadership, NATO will 
loose its effectiveness for action and become an institution 
where inaction, passivity, and lowest common denominator 
politics are the order of the day.
    Others, Mr. Chairman, contend that leadership is domination 
and that American dominance is a problem. That is why I believe 
various annexes to the Nice Treaty speak of things like an EU 
strategic partnership with NATO. Each organization dealing with 
itself--with each other on an equal footing. That NATO show 
total respect, I quote, ``For the autonomy of EU 
decisionmaking'' or why the French general chief of staff 
testifying before Assembly Nationale said that one annex to the 
Nice Treaty was specifically worded to rule out, and I quote, 
``Any interpretation that would give NATO a decisionmaking 
priority in their reaction to crises.''
    In a word, Mr. Chairman, with the increase of Euro-
nationalist and Euro-Gaullist tendencies across the continent, 
I believe that there are still serious questions about the 
direction of European integration in general. As Henry 
Kissinger wrote recently, quote, ``Many advocates of European 
integration are urging unity as an exercise in differentiation 
from, if not opposition to, the United States.'' There are 
questions that remain. Will the European defense policy add 
ships, guns or aircraft or will it simply decouple important 
assets from the Alliance and contract them to Brussels? Will, 
as my colleague Richard Pearl puts it, the European defense 
speak with a British or a French voice?
    Finally, Mr. Chairman, I was told that Prime Minister Blair 
had not read any of the annexes to the Nice Treaty, that when 
he confronted some of the controversial passages later, he 
quipped that such language did not really mean anything, that 
nobody was really suggesting that Europeans create structures 
separate and independent from NATO. It reminds me, Senator 
Smith, of the line from the British editor, Charles Moore, 
about European integration. Each and every time a strange and 
seemingly imprudent proposition is put forward by certain EU 
elites, an official steps forward to answer critics by saying, 
quote, ``Of course nobody is suggesting that'' and low and 
behold, observes Charles Moore, 6 months or a year later, 
``nobody,'' it turns out, is getting his way again.
    Mr. Chairman, no, let us not loose our critical voice. I 
would only like to suggest, whatever we do with the European 
defense force and our criticism of it, let us make sure it is 
not counterproductive. Sometimes, as we well know, if we oppose 
it, the others want it even more. Mr. Chairman, thank you and 
be happy to take questions or listen to Ron's testimony and 
join the discussion now and then.
    [The prepared statement of Dr. Gedmin follows:]

                PREPARED STATEMENT OF DR. JEFFREY GEDMIN

                              INTRODUCTION

    Mr. Chairman and Members of the Committee, I want to thank you for 
the invitation to appear before you to today. It is an honor to have 
the opportunity to discuss with you the state of America's most 
important partnership. I would like to address briefly four particular 
issues today, all of which have considerable bearing, in my view, on 
the current and future health of the Atlantic Alliance. I have a 
prepared statement, which I submit for the record. I would be pleased 
at this time to summarize my statement before answering any questions 
you have.

                         1. UNFINISHED BUSINESS

a. The Balkans and Southeastern Europe
    President Bush has indicated that he would like a change in U.S. 
policy toward the Balkans. It is appropriate to review U.S. policy. The 
ouster of Slobodan Milosevic last October opened a new chapter in the 
story of the region. There are new opportunities for democracy, 
economic development and regional cooperation across Southeastern 
Europe. Of course, the challenges are still formidable. The new Serb 
leadership has rejected the idea of turning Slobodan Milosevic over to 
the UN tribunal in The Hague. Belgrade has shown little interest in 
bringing to justice other leading war criminals, like Radovan Karadzic, 
the Bosnian Serb leader and Ratko Miadic, the former commander of the 
Bosnian Serb army, who resides in Belgrade. In fact, Serbian President 
Milutinovic, an indicted war criminal, continues to hold office. Alas, 
it's also true that while these men were among the most notorious 
perpetrators of atrocities, many other Serbs served as willing 
executioners.
    Until the ``de-Slobofication' of society properly begins, 
political, social and economic reform in Serbia will move slowly. 
Serbia needs to move from war to peace; from a communist ethos to 
democratic practice; and from the malign and lethal nationalism of the 
Milosevic era to a new period of liberal values, habits and behavior. 
All this will take time.
    Serbia is not the only country in the throes of a difficult 
transition. Kosovo and Montenegro, both legally still part of the 
Yugolsav Republic, continue to seek independence. There are those who 
argue that it's time to end the dissolution and begin the process of 
Western integration. I firmly believe that the prospect of Western 
integration is essential to the future stability and security of this 
part of Europe. At the same time, though, I question whether meaningful 
steps toward Western integration can begin if the process of 
dissolution in the region is not yet complete. Mr. Chairman, the status 
of Montenegro and Kosovo are inconvenient and complex topics that defy 
simple solution. I'd argue, nevertheless, that these problems are 
unlikely to go away and, if mishandled, especially in the case of 
Kosovo, could lead to an expansion of violence and a return to 
instability in the region.
    What role should the United States play? Whatever options Western 
policy pursues, I would urge us to consider our own evolving role in 
the Balkans in the context of American grand strategy toward Europe. 
Specifically, if the United States decides to reduce the scale of its 
military commitments, I believe it is essential that we do so in such a 
way that such steps do not re-ignite a crisis in the area. We 
intervened twice in a decade in the Balkans, deploying tens of 
thousands of troops and investing billions of dollars. I view the 
continuation of some U.S. presence in the Balkans as a modest overhead 
cost to protect our investment and contribute to the region's overall 
stability.
    I also believe, Mr. Chairman, if the President decides to reduce 
U.S. military commitments in the Balkans, that we do so in such a way 
that we do not diminish our standing within the Alliance. In this 
context, I welcomed the statements made by Secretary of State Colin 
Powell, who has said that the U.S. has no intention to cut and run from 
the Balkans. Similarly, I was pleased to hear Defense Secretary 
Rumsfeld earlier this month at the Wehrkunde conference in Munich, 
where he said that the U.S. ``will not act unilaterally, or fail to 
consult our allies.''

b. The Completion of Europe: NATO Enlargement
    Mr. Chairman, I've just said that I believe that U.S. engagement in 
the Balkans should be viewed in the larger context of America's grand 
strategy toward Europe. A central part of that grand strategy, in my 
view, should be the completion of Europe. I believe it's in our 
national interest to promote the process of broad Euro-Atlantic 
integration that we began after the Soviet Union's collapse a decade 
ago. The United States will be best suited to face the challenges of 
the next decades if ``Europe'' includes not only our West European 
allies, but also the young democracies of Central and Eastern Europe; 
and that in time this new Europe is able to join the United States in 
sharing responsibilities for the new risks that we all face. Admitting 
Poland, Hungary and the Czech Republic into NATO was a step in the 
right direction.
    Of course, Euro-Atlantic integration should be driven by twin 
engines: the enlargement of NATO and the European Union (EU). 
Unfortunately, the EU has not yet opened its doors to anyone from the 
former Soviet bloc. It's clear that the EU's strategic priority remains 
``deepening,'' not ``widening.'' This agenda began a decade ago with 
preoccupation over adopting a single currency for the West European 
group. It continues today with considerable energies being devoted to 
the development of a West European Rapid Reaction Force. I do hope that 
the EU moves forward with enlargement. The EU is an important economic 
and political institution. Inclusion in the EU will help the Central 
and East Europeans consolidate their democratic progress and accelerate 
economic development throughout the region. I hope, Mr. Chairman, that 
the United States will continue to encourage, albeit gently, our West 
European friends to open up the EU.\1\
---------------------------------------------------------------------------
    \1\ It's regrettable to see how, for instance, American support for 
Turkey has often back-fired. Elmar Brock, a German Christian Democratic 
member of the European parliament, recently said that the EU should 
admit Turkey the same day the United States takes in Mexico as the 51st 
state. Klaus Haensch, a former President of the European Parliament, 
argued recently that American support of Turkey for EU membership was 
an attempt by Washington to weaken the European Union. From the 
conference ``Balancing Transatlantic Relations: Europe and the United 
States in Global Politics.'' Berlin, January 27/27, 2001. Sponsored by 
the Aspen Institute and the Stiftung Entwicklung und Frieden (SEF), 
Bonn.
---------------------------------------------------------------------------
    As for NATO, the Alliance convenes its next summit in 2002. In 
Washington, we've already entered into a period of quiet, informal 
predebate on what shape the next round of enlargement should take. I 
would urge us, Mr. Chairman, to begin consultations with our Allies as 
soon as possible. We want to avoid the frictions and bruised feelings 
we encountered last time, when our West European Allies felt that the 
United States did not properly consider their own preferred candidates 
for enlargement. Membership to NATO must be contingent, of course, on 
the preparedness and qualifications of each individual candidate. There 
must be a compelling case, moreover, that the inclusion of each and 
every candidate adds value and makes the Alliance stronger.
    I'd also urge us to consider NATO enlargement, though, in the 
broader context of what we want to achieve. That should be, in my 
judgment, an expanded and revitalized Alliance, which should serve as 
the basis for a new strategic partnership. What I'm talking about, I 
concede, is not easy. It is not inexpensive; nor is it without risk. 
But NATO enlargement is not a gamble, Mr. Chairman. It's a sound 
investment. I am fully convinced that the investment will pay for 
itself many times over. I might add, Mr. Chairman, that the continuing 
process of NATO enlargement also happens to be one major and 
constructive project about which we and our current allies generally 
agree, as Zbigniew Brzezinski has pointed out. With all the arguments 
and frictions we currently have, it's right to remember the important 
things we still share in common.

                          2. THE AGENDA AHEAD

a. Ballistic Missile Defense
    President Bush has argued that we need to come to terms with the 
new strategic environment in which the United States and its Allies 
find themselves today. A central concern of the new administration is 
that the United States become equipped to defend its people and forces 
against a limited, but deadly ballistic missile attack, whether the 
attack is deliberate or caused by an accidental launch.
    The ballistic missile threat continues to be a primary threat 
facing the United States. There are currently 13,000 ballistic missiles 
in the inventories of 37 states today. Whether short- or long-term, 
ballistic missiles are a cost-effective system capable of delivering 
their payload to a target with a high probability of success. What's 
more, if the United States has no means to defend itself, our 
adversaries will also be able to use ballistic missiles as a means of 
blackmail and coercion. This would pose a danger to the United States--
and our closest allies. Imagine if Slobodan Milosevic had possessed 
ballistic missiles capable of reaching Athens or Rome. Would the 
fragile coalition that fought the war in Kosovo have managed to hold 
together for those 78 days?
    The United States is committed to developing and deploying missile 
defense systems that will protect the American people and our forces. 
The U.S. has also expressed its willingness to assist friends and 
allies to deploy such defenses. As you are aware, Mr. Chairman, our 
allies have expressed their concerns, though, about American plans. A 
central concern has to do with their worries about the reactions of 
Russia. Sometimes I wonder which Russia they are worrying about. The 
Russians proposed last week a joint European defense system. Not for 
the first time, of course. President Putin was already pitching a 
version of the idea last summer. But it's also true that when the 
Russians are not proposing to work together on missile defense, Moscow 
is spending inordinate amounts of time ridiculing the rationale for 
such a system. Defense ministry spokesmen have said that the ``true 
missile threat'' is actually ``nil''; that U.S. threat scenarios 
represent a ``fantasy'' of American defense planners. According to 
President Putin not so long ago, the missile threat, ``which Americans 
mention . . . does not exist today and will not [exist] in the 
foreseeable future.''
    I believe that we should engage the Russians about our plans for 
missile defense--just as we need to consult our allies. At the same 
time, though, we should be clear. The Russians understand missile 
defense. They know that our plans are not directed against them. What 
the Russians fear, of course, is that the deployment of U.S. missile 
defense systems will extend and consolidate America's considerable 
military and technological advantage. Mr. Chairman, some Europeans fret 
about missile defense for the very same reasons. Karl Lamers, foreign 
policy spokesman for the German Christian Democratic Union, recently 
objected to American missile defense on the grounds that it would 
enhance our current leadership status in the world to a position in 
which we would become outright ``rulers of the universe.'' \2\
---------------------------------------------------------------------------
    \2\ Wehrkunde Conference, Munich, February 3-4, 2001.
---------------------------------------------------------------------------
    Naturally, the United States cannot choose to abdicate its 
responsibility to defend itself because others are worried that we may 
become stronger in the process. I am encouraged by the fact that our 
European partners--from NATO Secretary General George Robertson to 
German Foreign Minister Joschka Fischer--have refused to be swayed by 
mischievous Russian behavior over missile defense (or misguided 
sentiment in their own countries). I also appreciate the fact that, 
through careful study and consultations, the gap on threat assessment 
seems to be closing between America and Europe.
    What the United States still needs to undertake, however, is a 
major public diplomacy campaign that opens up with our friends and 
allies a fuller discussion of ballistic missile defense. We need 
ballistic missile defense--in the context of a strong and healthy 
alliance. This discussion should include (1) a robust conversation 
about our threat assessment; (2) an explanation of why we believe that 
ballistic missile defense carries far more benefits than potentially 
harmful side-effects; and finally (3) an explanation of how prudent 
steps toward ballistic missile defense will be compatible with sensible 
arms control and non-proliferation policies.
    I was disappointed, Mr. Chairman, that Prime Minister Blair did not 
use the opportunity of his recent visit to Washington to show his own 
leadership on the issue. William Hague, leader of the opposition in the 
United Kingdom, had argued last month that ``America's oldest and 
staunchest ally'' should ``co-operate with the United States to the 
best of our ability as it develops and build its weapons shield.'' Mr. 
Hague also argued for cooperation on an Allied missile defense system. 
I hope Mr. Blair will reconsider his deep ambivalence about ballistic 
missile defense and join the United States in leading a constructive 
conversation with our other allies on the issue. If conducted properly 
and in the right spirit, this effort should lead to a serious and deep 
strategic dialogue that looks forward on a range of issues--and breaks 
down the categories of old Cold War thinking about arms control and 
deterrence that continue to dominate far too much of our transatlantic 
discourse today.

b. The European Union's Rapid Reaction Force
    Mr. Chairman, let me add that I was also disappointed by Prime 
Minister Blair's recent reluctance to support ballistic missile 
defense, because President Bush had gone out of his way to offer such 
strong and clear support for a project that is so near and dear to the 
British Prime Minister's heart. That is, Europe's own Security and 
Defense Policy (ESDP) and the European Rapid Reaction Force.
    I'd simply like to say here, Mr. Chairman, that I believe that we 
should now spend far less time debating the merits and modalities of 
the European Rapid Reaction Force. It is not unimportant. But there are 
other important items on the transatlantic agenda--issues like 
expanding NATO; pursuing, in cooperation with our allies, ballistic 
missile defense; and, if I might add, containing--and I hope with the 
new administration now in place--removing Iraqi dictator Saddam Hussein 
from power.
    The arguments by American skeptics about the West European defense 
project have been made. Build capabilities, not just institutions, we 
have said. Pursue European defense in a way that strengthens NATO and 
does not undermine the Alliance. But today the debate has become overly 
acrimonious and counterproductive. It's counterproductive in part, Mr. 
Chairman, because the European Rapid Reaction force is still today a 
largely theoretical matter. As the Economist wrote recently, ``the EU-
led force to be assembled by 2003 is . . . likely to be severely 
hobbled in its formative years by political and military growing pains, 
and by European governments' reluctance to put up money.'' While the 
British government recently published a budget that foresees the first 
real increase in defense spending since the end of the Cold War, both 
Britain and France face serious defense budgetary pressures. Germany, 
moreover, Europe's largest economy, will reduce military spending by 
$10 billion over the next four years.
    Mr. Chairman, please do not misunderstand me. I continue to share 
your reservations about the European defense project. You and Senator 
Helms wrote recently in a letter to the Daily Telegraph in London that 
you worried about the ``true motivation behind ESDP, which many see as 
a means for Europe to check American power and influence within NATO.'' 
I share this concern.
    When French President Jacques Chirac says, for example, that 
European Defense will develop ``in complete harmony with NATO,'' what 
kind of NATO is he thinking about? Some of us believe that an effective 
NATO thrives on American leadership; that without American leadership, 
NATO will lose its effectiveness for action and become an institution 
where inaction, passivity and lowest-common-denominator politics are 
the order of the day.
    Others contend, however, that leadership is domination; and that 
American dominance is a problem. That is why, I believe, Annex VII of 
the Nice Treaty speaks of the EU's ``strategic partnership'' with NATO, 
a partnership in which ``each organization will be dealing with the 
other on an equal footing.'' The document demands, moreover, that NATO 
show ``total respect of the autonomy of EU decision making.'' It's why 
Gen. Jean-Pierre Keiche, the French chief of staff, has testified to 
the Assemble Nationale that Annex I to the Nice Treaty was specifically 
worded to rule out ``any interpretation that would give NATO a 
decision-making priority in the reaction to crises.'' \3\
---------------------------------------------------------------------------
    \3\ John Bolton, nominated by the President to become 
Undersecretary for Arms Control in the new administration, was 
described by the French press agency (AFP, February 24) as ``America's 
most outspoken opponent of plans for a European army free of US 
influence and NATO control.'' (my emphasis).
---------------------------------------------------------------------------
    In a word, Mr. Chairman, with the increase of Euro-nationalist and 
Euro-Gaullist tendencies across the continent, I believe that there are 
still serious questions about the direction of European integration in 
general. As Henry Kissinger wrote recently, ``many advocates of 
European integration are urging unity as an exercise in differentiation 
from, if not opposition to, the United States.'' \4\ Within this 
context, there are questions about ESDP. It's not yet clear whether 
European defense policy will add ships, guns, or aircraft; or whether 
it will decouple important assets from the Alliance and contract them 
to Brussels. Nor is it clear whether European defense is to speak, as 
my colleague Richard Perle puts it, with a British or a French voice. 
I'm told, Mr. Chairman, that Prime Minister Blair had not read the text 
of the annexes to the Nice Treaty; that when he was confronted later 
with controversial passages he quipped that such language didn't really 
mean anything; that nobody was really suggesting that the Europeans 
create structures separate and independent from NATO. It reminds me, 
Mr. Chairman, of a line from British editor Charles Moore about 
European integration. Each and every time a strange and seemingly 
imprudent proposition is put forward by EU elites, an official steps 
forward to answer critics by saying, ``Of course, nobody is suggesting 
that . . .'' And lo and behold, observes Charles Moore, six months or a 
year later ``nobody,'' it turns out, is getting his way.
---------------------------------------------------------------------------
    \4\ Henry Kissinger, ``An Alliance that sees Eye to Eye.'' 
Washington Post, January 24, 2001.
---------------------------------------------------------------------------
    No, Mr. Chairman, let's not lose our critical voice. I'd only like 
to suggest that we establish priorities. That is, so long as European 
defense remains largely theoretical--and at least some Atlanticist 
members of NATO truly believe that ESDP is a step toward burden-
sharing--I believe that we should concentrate our energies on the most 
immediate challenges at hand and not find ourselves lost in 
unproductive acrimony where it can be avoided.
    Mr. Chairman, again thank you for the opportunity to testify today. 
I'd be happy to answer any questions you have.

    Senator Smith. Before we go to Ron, I do want to ask, I 
think you were implying what I am about to say, you were 
disappointed with the exchange between Prime Minister Blair and 
President Bush because it seemed like to get along they were 
going along. And in just going along without some understanding 
of the details and the implications of the details, we are 
going away. Is that about what you were saying?
    Dr. Gedmin. That's exactly what I was saying.
    Senator Smith. Dr. Asmus.

    STATEMENT OF DR. RONALD D. ASMUS, SENIOR FELLOW, EUROPE 
     STUDIES, COUNCIL ON FOREIGN RELATIONS, WASHINGTON, DC

    Dr. Asmus. Mr. Chairman, it is a pleasure to be here today. 
I realize you have invited me to talk about the problems we 
face in the Alliance, a conversation we have already begun. But 
before we continue that conversation, I would like to take this 
opportunity to congratulate the committee, Senator Helms, 
yourself, and Senator Biden on the leadership you provided 
during the last decade, which was one of the most crucial 
periods in Alliance history. I want to make sure that we do not 
get so caught up in the challenges we face today that we forget 
about what we have accomplished.
    The 1990's were a truly historic period. We initiated some 
of the most far-reaching changes in NATO since the days of 
Truman and Acheson. We enlarged our membership and our missions 
and we went to war and prevailed in the Balkans. That was a 
breathtaking transformation of the Alliance. It did not happen 
by accident and it was not inevitable. It took leadership and 
it took people leading, including yourselves and the committee. 
As someone who had the privilege of serving under the last 
administration and working with the committee, I wanted to 
thank you and your staff. It was not easy. Sometimes we 
disagreed, but I think the policies that resulted were better 
as a result.
    Where are we today? We are in a period, and I think this is 
what you have been saying, Senator, of transition and 
redefinition of the U.S./European relationship that is similar 
to the late 1940's and 1950's. And we are halfway through the 
transformation of Europe from the old divided Europe to a new 
Europe that is twice as big in terms of size and the number of 
countries. We are also halfway through the transition of NATO 
from an old U.S.-West European alliance focused against the 
Soviet threat to a new alliance between the United States and 
Europe as a whole trying to deal with new threats.
    Having embarked on this expedition, we are like the guys 
who started out climbing a mountain and are halfway to the 
peak. We are slightly winded, and are taking a break. Some of 
us want to push on to the top and others want to take a longer 
break; and still others are looking not quite sure they are 
happy they went on this expedition in the first place and 
wondering whether it was perhaps better to have stayed at home.
    I belong to those who believe that the vision is the right 
one, that we need to remain ambitious and push ahead and get 
the job done. I believe we have a window of opportunity both to 
shape the peace in Europe and to define the terms of a new 
strategic relationship with Europe for the next century. That 
is the political challenge we face and it is not going to 
happen unless we take the lead.
    As I look ahead, I think this administration faces four 
challenges in NATO. The first is the completion of Europe and 
NATO enlargement. The second is rebalancing the transatlantic 
relationship by strengthening the European component without 
tearing the broader relationship apart which is ESDI and ESDP. 
The third is the reorienting and retooling of the Alliance in 
order to ensure that we actually have capabilities to do what 
we say we should be doing. And the fourth is Russia.
    I would like to touch on the first two of these: 
enlargement and ESDP. We have said that our goal is to create a 
Europe whole and free and that NATO should remain the defense 
arm of this new Europe. We have also said that EU and NATO have 
parallel and reinforcing roles in integrating the eastern half 
of the continent. If NATO is the vehicle for collective defense 
and the EU is the vehicle for the political and economic 
integration of these countries.
    The implication of those statements is that both 
institutions at the end of the day should enlarge to embrace 
the eastern half of the continent. The question is, how do we 
manage this process to effectively project stability to those 
parts of Europe that are not yet secure and simultaneously 
ensure that this larger Alliance remains politically cohesive 
and militarily effective? As you know, we have constructed a 
process within NATO. In the run up to the NATO summit in 
Prague, 2002, we will be reviewing the next steps in the 
process.
    Two factors will be important. The first will be the 
performance of the candidate countries. By the next summit we 
will have completed two cycles of the MAP [membership action 
plan] process which should provide a set of data to judge how 
those countries are performing in key areas. We should await 
those results before getting into the debate on the packaging 
of the next round. The second question is: what are we trying 
to accomplish strategically with the next round? There are 
three issues on the table and three options. One would be for 
NATO to focus on the two remaining Central European countries 
not included, Slovenia and Slovakia. Both countries are doing 
well. Their inclusion is not likely to be controversial.
    Such an approach would allow NATO to check the box. But in 
my view it would not address any of the key strategic issues in 
Europe, nor would it ensure that NATO is locking in freedom and 
peace in the areas where they are most at risk. It would be low 
risk, but also low payoff.
    The more challenging and interesting questions are, what 
are we going to do about the Balkans and the Baltics? It is in 
these two areas that NATO has the potential to positively shape 
the new map of Europe.
    Regarding the Balkans, I think we, the United States, must 
realize that Europe will never be whole, free and secure so 
long as southeastern Europe is unstable and insecure. That is 
why it is essential--for all the reasons that General Clark and 
Jeff have laid out--that we remain engaged in Bosnia and 
Kosovo. Expanding NATO to countries like Bulgaria and Romania 
who stood with us during the Kosovo crisis would be the logical 
extension of a strategy to stabilize the region and integrate 
it.
    The question will be performance and whether these 
countries have performed well enough to deserve an invitation 
when we get to the point of making such decisions in some 18-
months time. But in many ways, as you know, Senator, the most 
controversial issue is the Baltic states. Here the issue is not 
really performance. The Baltic states are generally recognized 
as being among the great success stories of the post-Communist 
transformation. The issue is the strategic; namely, is it in 
our interest to bring one or more of these countries in despite 
well-known Russian objections? I believe the answer to the 
question is yes--for moral, political and strategic reasons.
    Morally, these countries should not be discriminated 
against today because they were illegally annexed by the then 
Soviet Union a half-century ago. They should not be punished 
now because they were punished then. The line drawn by Hitler 
and Stalin, two totalitarian dictators, and never recognized by 
the United States during the cold war, can hardly guide our 
policy today. Politically, Northeastern Europe has been a 
success story, but part of the reason it's been a success story 
is that the prospect of NATO and EU enlargement has served as a 
magnet to help these countries make the right decision to do 
the right thing.
    If we now remove that perspective, we run the risk of 
undoing the stability we have recreated. Moreover, there is 
also a question of political principle. This is something I 
know that you on the committee care deeply about. We have said 
that states should be able to choose their own alliances, that 
security in Europe should be indivisible and that NATO is about 
creating a Europe whole and free. We have said that Russia will 
not have a veto. As Americans we pride ourselves as a country 
that stands by its friends. The Baltic issue is a litmus test 
of all those principles and whether we really mean what we have 
said.
    Finally, I also believe there is a case to be made that it 
is strategically in the U.S. interest to bring these countries 
into NATO in order to lock in the security and stability of 
this region. Of course we must always ask ourselves the 
following question: Would we go to the defense of those 
countries if they were threatened? I believe in the case of the 
Baltic states the answer to that question already today is yes. 
I can't imagine that the President of the United States would 
not respond if there was a crisis.
    When I was a student studying strategy I was always taught 
that the best security guarantee is the unambiguous and 
credible one. And NATO and the United States is the only--we 
are the only institution that can provide it. For all these 
reasons I believe it is critical that the next round of 
enlargement have a Baltic dimension.
    Now, let me turn briefly to ESDI and ESDP. When I was in 
the State Department, I was the negotiator on many of these 
issues. I was and still am often asked whether all the Sturm 
and Drang swirling around these issues is justified or 
misplaced, and whether this is a technical ``insiders issue'' 
for policy wonks, or whether it is the kind of grand strategy 
and high stakes we are talking about here. I think it is both.
    As you have asked, Senator, one of the questions we 
Americans often pose is: what has motivated Europe to take this 
step? And I think the truth is that the motivations are mixed. 
It is, in part, simply the next step in the European 
integration project that is now encompassing the foreign policy 
domain and articulating the logical goal of having European 
military capabilities to back up a common foreign policy. For 
some countries, it is primarily about using Euro-pride to get 
European countries to spend more on defense. For others it is, 
as General Clark said, a reaction to their sense of humiliation 
by our dominance and their impotence in Bosnia and Kosovo. I 
hope we can perhaps come back to this in the question-and-
answer period.
    For still other Europeans, however, it is about organizing 
Europe more effectively to counter what they think is 
overwhelming U.S. influence and better standing up to policies 
on our part that they disagree with. We should have no 
illusions about this mix in motivations. The question is, how 
can we pursue a policy to maximize the chances that it comes 
out right?
    The set of issues we were wrestling with in the Clinton 
administration was a relatively narrow one of how we would work 
out an arrangement so that the EU might act in a crisis when 
NATO has opted not to act; what the modalities would be for the 
EU to be able to draw on NATO assets in such a scenario and how 
we would consult, including with those non-EU NATO countries, 
such as Turkey or Norway. I actually believe that the deal that 
is on the table--although I understand that sometimes the 
language is unintelligible unless you have been through the ups 
and downs of all these negotiations--is not bad and that our 
equities are protected.
    While there are still some outstanding issues I would 
prefer to have greater clarity on, this is not a deal we should 
walk away from. It is a deal we should close, but close on the 
right note and with the right details. But the broader, and in 
my view, more important issue is this: is ESDP the first step 
in renegotiating the terms of the U.S./European strategic 
dialog and partnership for the next century? And are we setting 
the right pattern here. What is going to be the primary 
framework we will use when we interact and cooperate with 
Europe on strategic issues? Is it going to be the traditional 
NATO framework? Or is it going to be the U.S./EU framework with 
all the competition and rivalry we currently have on trade 
issues? Or is it going to be some new hybrid that we are now 
creating? The NATO and EU worlds are, for the first time, 
clashing and coming together; and we are renegotiating how we 
are going to work together on strategic issues And we are all 
waiting to see whether and how the two institutional cultures 
and approaches can be reconciled.
    Are we going to take the NATO model of transatlantic 
cooperation and expand it to include these new strategic 
issues? Or are we going to go more in the direction of the 
``United States versus Europe'' model of how we have 
traditionally interacted with the EU? Frankly, we do not yet 
have the answer to that question. I think this is the political 
issue that General Clark referred to. It is one that we should 
focus on in the years ahead.
    In my view, the best way to manage this is to follow some 
pretty straightforward principles. First, we have historically 
supported European integration because we believe it creates a 
more peaceful Europe and that a stronger and more self-reliant 
Europe will be a more capable and effective partner of the 
United States. I think that premise remains correct.
    If we are honest, we want and need a stronger Europe. The 
basic problem we face today is that Europe is too weak, not too 
strong. And the best way for Europe to become stronger is via 
European integration. So, we should make it clear that we 
support a strong, integrated Europe, particularly because all 
too often our reservations on ESDP are misinterpreted as a 
secret American desire to keep Europe down.
    But second and equally clear, we have been interested in 
insuring that European integration is and remains pro-
Atlanticist. We want European integration to bring us closer 
together, not drive us farther apart. I believe the vast 
majority of Europeans want that as well. But this is also why 
getting the details right is so important. There is no 
contradiction between being supportive in principle of a strong 
Europe and a strong ESDP, but vigorously working the details so 
that they come out right, which is what I think the right 
policy is. The clearer we are on our support in principle, the 
greater our credibility is, when it comes to negotiating these 
important details.
    Third, at the end of the day, the most important thing is 
not only to have the bureaucratic mechanisms right or the right 
words on paper. It is to ensure that we actually agree on the 
big picture, on the problems and on the solutions. If we agree 
on that, we can make all this stuff work. But if we don't agree 
on the problem or the solution, then the best words on paper 
and the right mechanisms will not help us. I think the key 
question is whether we can again make the kind of political 
commitment to hammer out common policies and strategies on the 
three, four, or five top strategic issues the U.S. and Europe 
face today--like we did toward the Soviet Union during the cold 
war?
    The reality is that, we did not always agree on how to deal 
with Russia in 1949 when we created NATO. But we made a 
political commitment to hammer out a common strategy. And 
people like me spent their careers arguing and fighting with 
our allies until we finally hammered out a common strategy that 
we implemented. What bothers me today is that so much of our 
energy is spent focused on what we are going to do when we do 
not agree as opposed to using our political capital and time 
and energy in coming up with a better way to ensuring that we 
do agree. I'd like to come back to General Clark's statement: 
it is very important that we say we are going to be there with 
our allies. If we are going to be there, a lot of these details 
are not important because those scenarios will never come to 
pass.
    Mr. Chairman, I have not talked about NMD. A lot of other 
people have. It is obviously a key issue and how it is handled 
will have a key impact on NATO. But I hope my statement here 
has underscored that NMD is not the only issue and that there 
are other key issues on the U.S./European and NATO agenda. hope 
very much that NMD, as important as it is, will not crowd out 
or undercut this broader agenda we have been talking about here 
today.
    We are in the midst of perhaps the most important far-
reaching transition in NATO's history. And while we have laid 
the foundation for this transition, we are at a turning point. 
We have to get it right, which means we have to be investing in 
this Alliance and not taking it for granted or allowing it to 
drift. I think if we look 4, 8 years out at the end of the 
decade, it is an open question as to whether we will look back 
and say we completed the transition we started 7 years ago and 
we completed the unification of Europe, and have a solid NATO 
with new missions and capabilities. Or whether future 
historians will look back and say that this was the beginning 
of a transatlantic divergence that only got bigger over time. 
The challenge this administration faces is to make sure that it 
comes out the first way and not the second.
    [The prepared statement of Dr. Asmus follows:]

               PREPARED STATEMENT OF DR. RONALD D. ASMUS

    Mr. Chairman, it is a pleasure to appear before the Committee today 
to discuss the state of the North Atlantic Alliance. I realize you have 
invited me here today to discuss the current problems and challenges 
facing the Alliance. Before we turn to those, however, I would like to 
take this opportunity to congratulate the Committee--in particular Sen. 
Helms, Sen. Smith and Sen. Biden--on the leadership you provided over 
the last decade during one of the most crucial periods in NATO's 
history. Sometimes we get so caught up in the debates and problems of 
the moment that we lose perspective on what has been accomplished.
    The 1990s were a historic decade for the Alliance. Under U.S. 
leadership, we initiated some of the most far-reaching changes in NATO 
since the days of Truman and Acheson. NATO has been transformed from a 
U.S.-West European alliance directed against the Soviet Union during 
the Cold War to an alliance with a Europe that is becoming whole and 
free stretching from the Baltic to the Black Sea. In addition, we 
decided that NATO should be able to meet new threats to common allied 
interests from beyond the Alliance's immediate borders. NATO forces 
went to war for the first time in the Alliance's history in the Balkans 
to stop genocide and to create the conditions and framework for peace 
and the integration of Southeastern Europe into the European and trans-
Atlantic mainstream.
    That was a breathtaking transformation. It didn't happen by 
accident, nor was it inevitable. It happened because people had a 
vision and exerted leadership--in the Administration as well as in the 
Congress, and most specifically in this Committee. As someone who had 
the privilege of serving under the last Administration and working with 
the Committee, I would like to thank and congratulate you. None of this 
was easy. And we did have the occasional argument. But we would not 
have been successful without the leadership and support provided by 
this Committee.
    Looking back upon this period, historians will ask: why did the 
U.S., after the end of the Cold War, not only not withdraw from Europe 
but instead expand NATO's members and missions? The answer is 
threefold.
    First, having triumphed in the Cold War, we recognized that we had 
to shape the peace. We had a unique chance to fulfill the vision of 
Truman, Acheson and Marshall of a Europe whole and free in alliance 
with the United States, to lock in democracy and freedom and to ensure 
that all of Europe would never again fall back into old geopolitical 
rivalries, nationalism and conflicts that have dominated its bloody 
history. We decided the U.S. should remain a European power and help do 
for the eastern half of the continent what we did for the western half 
in the early post-war period--namely to extend the security umbrella 
and institutions that would make integration and reconciliation 
possible. And we recognized, albeit belatedly, that we could not have a 
Europe whole and free if war and genocide were raging in Southeastern 
Europe and the former Yugoslavia. We therefore decided to use diplomacy 
backed by NATO force to bring that conflict to an end.
    Second, we recognized that NATO had to change if it was to 
successfully tackle these challenges. The logical consequence of a new 
Europe was a new NATO--one based on the same core values and principles 
of the founding fathers of the Alliance but adapted to meet the new 
challenges and post-Cold War threats we face. As Senator Lugar put it 
at the time, the Alliance had to go ``out of area or out of business'' 
because that is where the new problems were. So we decided it made 
sense to expand NATO's members and missions as part of a strategy of 
creating a new and broadened trans-Atlantic community able to defend 
itself against new threats.
    Third and finally, we realized that Europe remains as important to 
the U.S. as it did during the Cold War, albeit for a different set of 
reasons. Our two continents are more integrated than at any time in 
history. There is no part of the world with which we have more in 
common politically; with which we invest and trade more; and with which 
we have a closer military relationship. The U.S. may be the world's 
only global superpower but we, too, need allies. And the reality is 
that Europe is our geopolitical base, the part of the world with which 
we have the most in common. In an increasingly globalized world, 
alliances and the ability to put together coalitions of like-minded 
countries with common interest is essential. We are in Europe today not 
only as a protector but as a partner. The longer-term challenge is 
whether, as Europe is increasingly unified and secure, we can take the 
principles, culture and habits of Atlanticism and create the kind of 
close U.S.-European cooperation we need to address a new set of broader 
strategic challenges beyond the immediate confines of Europe.
    Now, where are we today? We are in a period of transition and 
redefinition of the U.S.-European strategic relationship not unlike the 
period in the late 1940s and 1950s. We are half way through Europe's 
own transformation from the divided continent of the Cold War to a new 
unified Europe twice as big in terms of numbers and space. We are also 
half way through NATO's transition to an Alliance that reflects this 
new Europe and has reoriented itself to deal with the new threats we 
are most likely to face. Having embarked on this expedition, we are 
like the guys who started out climbing a mountain, are now half way to 
the peak and slightly winded. Some want to push ahead to get to the 
top; others want to stop and take a break and perhaps consider a course 
correction; and there may even be a few who are not sure whether it 
would not have been better to stay home.
    I belong to those who believe we know our goal and that we need to 
remain ambitious, push ahead and get the job done. The vision we have 
is the right one and our job is not yet complete. We need to act 
judiciously but keep our eye on the ball. We have a window of 
opportunity to shape the peace in Europe and to define a new strategic 
relationship with Europe for the 21st century at a time of peace and 
prosperity. But there is also the political challenge. Having served in 
government, I know that none of this happens by itself or by osmosis. 
It happens, if at all, because leaders and countries take the 
initiative to create relationships and capabilities that they can then 
draw on when challenges arise.
    Looking ahead, this Administration faces four critical challenges 
in our relations with Europe, and in NATO. They are:
    The completion of Europe. Our goal is to create a Europe whole and 
free, based on the principles of equal and indivisible security. This 
is the best way to ensure that war and conflict become as inconceivable 
in the eastern half of the continent as they have become in the western 
half. NATO enlargement has been an integral part of our strategy to 
overcome Europe's Cold War divide and achieve this goal. The Bush 
Administration should, in my view, continue the policy established by 
its predecessor and overwhelmingly supported by this Committee in order 
to take the next step in achieving that vision.
    The great achievement of the last decade happened in Central 
Europe. It is now not only free but safe. When I was in school we were 
taught that Central Europe was where the great wars came from. When I 
studied in Europe as a young man, a trip to Warsaw, Prague or Budapest 
was still an exotic and slightly dangerous journey behind the Iron 
Curtain. My son will travel to Europe and visit these cities as easily 
as my generation visited Paris, Munich or Florence. He will never think 
twice that countries like Poland, the Czech Republic and Hungary used 
to be separated from us by barbed wire and great armies. I call that 
progress. The question now is whether we will continue that progress 
when it comes to the rest of Central Europe, the Balkans and the 
Baltics.
    Rebalancing the Trans-Atlantic Relationship. The U.S. needs a 
strong and coherent Europe as a partner in Europe and beyond. Our basic 
problem is that Europe today is too weak and insular, and the asymmetry 
in the U.S.-European relationship is not healthy for either side. While 
the U.S. is and will remain a European power, we need a stronger 
European pillar in the Alliance that is willing and able to assume more 
responsibility and burden for its security and for defending the common 
interests of the Euro-Atlantic community. The U.S. should pursue a 
strategy to encourage Europe to grow into a broader foreign policy and 
security role in order to rebalance the trans-Atlantic relationship and 
to foster a great sense of European responsibility. The European 
Security and Defense Policy (ESDP), if developed and implemented 
properly, can be a vehicle for building a stronger European partner and 
rebalancing the trans-Atlantic relationship.
    But ESDP also has the potential to undermine the trans-Atlantic 
relationship if mishandled. The challenge is to make Europe stronger 
without making the Alliance weaker. And the danger is that the EU, in 
an effort to strengthen European integration and cohesion, will end up 
importing the seeds of rivalry and competition that could undercut the 
trans-Atlantic relationship over time. We need to be clear: ESDP is not 
only or just some technical bureaucratic question of how we decide 
whether NATO or the EU should take the lead in some modest future 
peacekeeping operation. It is a microcosm of a much bigger strategic 
issue, namely whether we, on both sides of the Atlantic, can reconcile 
the European integration project as represented by the EU with a new 
post-Cold War Atlantic project and create a new model of trans-Atlantic 
cooperation to more effectively address future crises.
    Reorienting and retooling the Alliance. During the last decade the 
U.S. and its European allies made a great deal of progress in terms of 
reorienting the Alliance politically and conceptually to deal with 
potential new threats to the territory and interests of NATO members. 
We signed up to a new strategic concept and a long list of initiatives 
ranging from the Defense Capabilities Initiative to the WMD Initiative 
designed to build the corresponding capabilities to handle a new 
spectrum of threats. NATO has to be able to do what it says. And let us 
be clear: we are talking about the capabilities to be able to respond 
to new Article V as well as non-Article V threats. As a member of the 
team that negotiated NATO's strategic concept, I always kept in front 
of me a copy of the Senate resolution of ratification from the NATO 
enlargement debate drafted by this Committee. It was the benchmark we 
set for ourselves and achieved in terms of the kinds of capabilities we 
want the Alliance and our European allies to develop over time.
    But the reality is that all too often the commitment to create 
these new capabilities exists on paper but is not implemented. The 
problem is not a lack of good ideas but the lack of political will and 
resources to ensure that these programs are implemented and that NATO 
can do what it has committed itself to. It takes time to reorient 
military establishments and create new capabilities. And we are 
fortunate that we do not face immediate threats that require us to 
engage these new capabilities immediately. But threats can arise faster 
than we can create capabilities. And the allies must spend and invest 
more in defense if we are to meet these challenges. Otherwise there is 
a real danger that the Alliance will become increasingly hollow and be 
unable to fulfill its commitments. We also need a trans-Atlantic 
defense industrial strategy that allows us to create capability 
together rather than driving us apart.
    The fourth challenge is Russia. Over a decade ago NATO and Russia 
each declared that they no longer considered each other adversaries. 
Since then NATO and Russian forces have served together in the Balkans, 
we have signed the NATO-Russia Founding Act and created the Permanent 
Joint Council (PJC) to establish a consultative and cooperative 
relationship between NATO and Moscow. Looking back, I think it is fair 
to say that the NATO-Russia relationship turned out better than the 
critics predicted but not as well as some of the proponents had hoped. 
The critics said we could not enlarge NATO and pursue NATO-Russia 
cooperation at the same time. Yet we did. Other critics said that the 
Founding Act and the PJC would give Russia a de facto veto over NATO 
decisionmaking. It did not, as was made amply clear by NATO's air 
campaign in Kosovo which the Alliance pursued despite vehement Russian 
opposition.
    At the same time, proponents of NATO-Russian cooperation--a 
category in which I include myself--had hoped to build a web of 
practical cooperation that would over time demonstrate to Russians, 
especially the Russian military, that NATO was not the enemy and that 
they could themselves derive benefits from cooperation with the 
Alliance. Unfortunately, that has not happened either. And Moscow's 
decision to essentially freeze NATO-Russian cooperation after the war 
in Kosovo, as well as the rise in anti-Western and anti-American 
attitudes more generally in Russia, suggest that it may take time 
before Russia is prepared to seriously engage with NATO again. For its 
part, NATO's offer of expanded cooperation still stands.
    Mr. Chairman, I would be happy to discuss any of these areas today. 
In my written comments I have been asked to focus on the first two 
challenges: NATO enlargement and ESDP. Let me start with NATO 
enlargement. The United States has said that our goal is to create a 
Europe whole and free and that NATO should remain the defense arm of 
this new Europe. We have also said that we believe that the EU and NATO 
have parallel and reinforcing roles in terms of integrating the eastern 
half of the continent with the West. NATO is the vehicle for the 
extension of a security guarantee and the EU the primary vehicle for 
the political and economic integration of these countries. Finally, we 
have said that at the end of the day the memberships in these two 
institutions should converge while recognizing that the respective time 
lines may be different and that there will be countries that, for their 
own historical reasons, may decide not to join one institution or the 
other.
    The logical implication of this is that both NATO and the EU should 
at the end of the day enlarge to the eastern half of the continent from 
the Baltic to the Black Sea as these countries embrace our values, meet 
our standards and as we conclude that their inclusion into Western 
institutions serves our own strategic interests. In parallel, both the 
EU and NATO will be seeking to build cooperative and close relations 
with countries like Ukraine and Russia who are key actors in European 
security but are each, for the foreseeable future, in their own 
distinct categories for a variety of reasons.
    The question therefore is how we manage the transition to this 
enlarged NATO, project stability to those parts Central and Eastern 
Europe that are not yet secure and simultaneously ensure that this 
larger Alliance remains politically cohesive and militarily effective. 
We have constructed a process within the Alliance to manage this 
process and to treat each country individually. We established two 
benchmarks to guide future decisions on enlargement: do countries meet 
our values and standards and is their inclusion in the Alliance's 
strategic interests? The Alliance is committed to review the process of 
enlargement at its next summit in Prague expected at the end of 2002. 
While the U.S. will not have to make any decisions until early next 
year, the debate on enlargement is likely to start this spring and 
summer and that the President will in all likelihood have to set the 
direction of future U.S. policy sometime next autumn.
    One key factor that should shape future U.S. policy will be the 
performance of the current candidate countries. At the last NATO summit 
in Washington, we created the Membership Action Plan (MAP) to provide 
more targeted assistance and reviews for these countries. By early 2002 
we will have completed two full cycles of the MAP process which should 
provide an excellent foundation for which to judge the performance of 
these countries.
    The other key question is what we hope to accomplish strategically 
with a second round of enlargement. Several options are on the table. 
One would be for the Alliance to focus on the two remaining Central 
European countries not included at the Madrid summit:
    Slovenia and Slovakia. Both countries are doing well in terms of 
meeting NATO standards, and their inclusion is not likely to be 
controversial. While such an approach would allow NATO to ``check the 
box'' on enlargement, however, it would not address any of the key 
strategic issues in Europe or ensure that NATO is playing a major role 
in shaping the emerging European security landscape and architecture. 
It would be low risk but also low payoff.
    The harder strategic questions revolve around what to do about the 
Balkans and the Baltics. It is in these two areas that NATO has the 
potential to positively shape the new security map of Europe and to 
make a real step forward toward our goals. Regarding the Balkans, we 
must realize that Europe will never be whole, free and secure so long 
as Southeastern Europe is unstable and insecure. That's why it is 
essential that the U.S. and NATO remain engaged in Bosnia and Kosovo. 
The best exit strategy is an integration strategy. Expanding NATO to 
countries like Bulgaria and Romania, who stood with the Alliance during 
the Kosovo crisis, would be a logical extension of a broader strategy 
to stabilize southeastern Europe and to help integrate it into the 
European and trans-Atlantic mainstream. The question is one of 
performance and whether we feel these countries have made sufficient 
progress in terms of meeting our standards. NATO is, after all, not a 
charity or a club. It is a military Alliance and involves the most 
serious commitment a country can enter into. This is a judgment the 
U.S. will have to make as we get closer to the Prague summit in 2002.
    In some ways the most controversial issue is the Baltic states. 
Here, the issue is not first and foremost performance. The Baltic 
states are generally recognized as being among the greatest success 
stories of the post-communist world in terms of political and economic 
reform. Anyone who has been to these countries will know that they 
share our democratic values and are also among the most pro-American in 
Europe. Having lost their freedom and independence in the past, they 
are now strongly committed to defending it. It is true that the Baltic 
states are small and still weak in the defense realm as they have had 
to build militaries from scratch. But their defense reform plans are 
solid, having been drawn up with the advice of the U.S. military, and 
they are on track in terms of building a modest but real military 
capability commensurate with their size. It will take time but they are 
showing a growing commitment to reach these goals.
    Each of the Baltic states must meet the same standards as other 
candidates--and they should be treated as individual countries, not as 
a bloc. But the real issue is the strategic one--is it in our interest 
to bring one or more of these countries into NATO despite well-known 
Russian objections? I believe the answer to that question is yes for 
moral, political and strategic reasons. Morally, these countries should 
not be discriminated against today because they were illegally annexed 
into the then Soviet Union a half century ago. They should not be 
punished now because they were punished then. The line drawn by Hitler 
and Stalin, two totalitarian dictators, and never recognized by the 
United States during the Cold War, can hardly serve as a guide for U.S. 
policymakers today. That is why President Clinton signed the Baltic 
Charter--to send a clear message that we consider the Baltic states to 
be part of our vision of a Europe whole and free, that they would not 
be discriminated against for reasons of geography and history, and that 
our goal was to create the conditions under which these countries would 
one day walk through NATO's open door.
    Ten years ago many commentators warned that the Baltic sea region 
could become a source of instability in Europe. Instead, the Baltic sea 
region has become one of Europe's great success stories. The fact that 
things have turned out so well thus far is because the Baltic countries 
have done the right things in terms of reform, dealing with their 
minority issues and in trying to build regional cooperation, including 
with Russia. This positive dynamic has been created in part because the 
prospect of NATO and EU membership has served as a powerful magnet and 
incentive. If we were now to go back on these pledges and remove that 
perspective, it would run the risk of undoing the very stability we 
have created.
    There is also a question of political principle, something I know 
this Committee cares about. We have said that states should be able to 
choose their alliances. We have said that security in Europe should be 
indivisible and that NATO enlargement is about creating a Europe whole 
and free. We have also said that Russia will not have a veto over NATO 
decisions. And we have said that performance will be rewarded. As 
Americans, we pride ourselves as a country that stands by its friends. 
The Baltic issue is a litmus test of whether we will stand by those 
principles in practice.
    Finally, it is also in our strategic interest to bring these 
countries into NATO. When it comes to a country joining NATO we must 
always ask ourselves the following question: would the United States go 
to the defense of that country if it were ever threatened? I believe 
that in the case of the Baltic states the answer to that question 
already today for the United States would be yes. As the Baltic states 
join the EU it will become inconceivable that other European members 
states would not come to the defense of a fellow EU member as well. If 
we are to assume such a commitment, it should be done right. As a 
student of strategy I was always taught that the best security 
guarantee is an unambiguous and credible one. NATO is the only 
institution that can provide that kind of guarantee. For all of these 
reasons, it is critical that the next round of enlargement have a 
Baltic dimension.
    I understand that Russia opposes further enlargement in general and 
to the Baltic states in particular. It does so because it still 
considers the Baltic states to be part of its sphere of influence. That 
is part of the reason why we have to bring them in. While we should 
take Moscow's attitude into account, we cannot let anachronistic 
thinking about spheres of influence in their policy determine our 
policy. Instead, we should make it crystal clear to Russia that 
enlargement, including to the Baltic states, is going to happen, that 
it is designed to create stability in the region and that we will 
listen to their concerns and address them when and where we think it is 
appropriate, but they will not determine our policy. Over the longer-
run, I believe that Baltic membership in NATO will actually lead to 
improved Baltic-Russian ties. Once they are secure, the Baltics will 
become more interested in cooperating with Moscow. And when the issue 
of their place in the new European order is settled, Moscow will then 
accept this new reality and eventually normalize its relations with 
these countries--as it has with those countries that joined NATO during 
the last round of enlargement.
    Let me turn briefly to ESDI and ESDP. I am often asked whether all 
the Sturm and Drang swirling around these issues is justified or 
misplaced, and whether this is a technical insider's issue for policy 
wonks and bureaucrats to resolve or a first tier strategic issue 
requiring high level attention. My answer is that it is both. The 
origins of the current debate go back to the early 1990s when our 
allies, fully supported by the U.S., decided to build a European 
Security and Defense Identity (ESDI) to strengthen the European pillar 
within NATO. That debate was given a major impulse in the mid-1990s 
when French President Jacques Chirac made his initial decision in 1995 
to seek a rapprochement with NATO. This led to the agreement reached at 
the June 1996 NATO Ministerial in Berlin--the so-called ``Berlin 
agreements.'' However, the effort to bring France more fully into the 
Alliance was halted when we could not agree over French and European 
representation in NATO's command structures.
    In the summer and fall of 1998 British Prime Minister Tony Blair 
took the next step when he reversed long-standing British skepticism 
regarding European defense and launched, along with President Chirac, 
the St. Malo initiative which proposed the abolition of the Western 
European Union (WEU) and the creation of a new political decisionmaking 
infrastructure and the military capabilities for the EU to act on 
defense issues outside of NATO. This, in turn, led to a discussion 
within NATO on the so-called ``Berlin plus'' arrangements which was 
essentially NATO's attempt to update the Berlin agreements to 
accommodate these changes in the EU and to create a new NATO-EU 
relationship and mechanism.
    Americans often ask: what motivated Europe to take this step? As 
often is the case in the real world, the motivations varied. In part 
this is simply the next step in the European integration project that 
is now encompassing a common foreign and security policy and 
articulating the logical goal of having a European military capability 
to back that up. For some countries it is primarily about using what 
they call Euro-pride to get European countries to spend more on 
defense, thereby strengthening NATO. For others, it is a reaction to 
U.S. policy in Bosnia and Kosovo and uncertainties over whether 
Washington will always be available to help in future crises. Finally, 
for some Europeans this project is about organizing Europe more 
effectively to counter what they think is overwhelming U.S. influence 
in Europe or to simply be able to better stand up to U.S. policies they 
think are wrong or misguided.
    In large part the debate over the last three years has focused on 
what has been the socalled ``Berlin plus'' arrangements--i.e., the 
relatively narrow issue of when and how the EU might chose to act 
militarily in a crisis when NATO has opted not to get involved, the 
modalities for the EU being able to draw on NATO assets in such 
scenarios, a new mechanism for NATO-EU consultations and how non-NATO 
European countries will participate in this process. Starting with the 
Washington summit in the spring of 1999, we have negotiated a series of 
understandings in the NATO context with our allies, and the EU has 
negotiated a set of agreements among EU members, that have resolved 
many but not yet all of these issues involved. We are in agreement that 
NATO remains the vehicle for collective defense, that NATO as well as 
the EU will have an important role to play in future crisis management 
missions and that the EU should have the capability to act, and to draw 
on certain NATO assets, when the Alliance cannot. We have not yet 
resolved the issue of how to ensure that non-EU NATO allies are as 
fully involved as possible in this process.
    But there is a broader and, in my view, more important issue here. 
This is the first step in negotiating the terms of a new strategic 
dialogue and relationship between the U.S. and the EU that is likely to 
grow in importance carry over into other areas in the years ahead. And 
the issue is whether the framework we will use in dealing with these 
new challenges will be the traditional NATO framework, the traditional 
U.S.-EU framework or some new hybrid. In many ways the NATO and EU 
worlds, with their very different cultures and rules of the road, are 
now clashing for the first time. And we are all waiting to see whether 
and how the two can be reconciled. The terms of the NATO-EU 
relationship--the degree of closeness, transparency, and consultation--
are likely to create a pattern that will carry over into other areas of 
U.S.-European foreign and defense cooperation as well. Are we going to 
be able to export the traditional close cooperation and collaboration 
of trans-Atlantic framework into these new areas and issues? Or are we 
going to import the competitive and at times confrontational parts of 
the U.S.-EU relationship into our security dialogue? Frankly, we do not 
yet know the answer to this question.
    In my view, U.S. policy should be guided by a couple of 
straightforward principles. First, we have historically supported 
European integration because of our belief that it will create a more 
peaceful Europe and that a stronger and more self-reliant Europe will 
be a more capable and effective partner. That premise is and remains 
correct. We want and need a stronger Europe. Indeed, the basic problem 
we face today is that Europe is too weak. We want Europe to assume 
greater responsibility in Europe and, over time, to become a strategic 
partner beyond the continent's immediate confines. The best and perhaps 
only way for Europe to grow into such a broader role and partnership is 
via European integration, including stronger role for the EU and a 
common foreign and defense policy. It is important, therefore, that we 
state our support for a strong and integrated Europe as clearly as 
possible. All too often our reservations on ESDP are misinterpreted as 
a secret American desire to keep Europe weak and impotent.
    Second, we need to be equally clear that we have an interest in 
ensuring that European integration is pro-Atlanticist. Our support is 
not blind or unconditional. We want European integration to bring us 
closer together, not drive us futher apart. That is why getting the 
details right is so important. There is no contradiction between 
strongly supporting ESDI and ESDP in principle and also being vigorous 
in ensuring that it is implemented in a fashion that strengthens the 
trans-Atlantic link. Indeed, the clearer we are in our principle 
support, the greater our credibility when it comes to negotiating the 
important details. That is what we tried to do in the last 
Administration when we articulated the so-called three D's: no 
decoupling, duplication or discrimination.
    Third, the most important thing at the end of the day is to have a 
common view of the problem and the solution. We can create the right 
words on paper or the best bureaucratic mechanisms for consultation, 
but if we lack agreement on the bigger picture and the right policies 
it will not work. And the best way to ensure that we agree on the same 
policy approaches is to maintain the closest possible ties cross the 
Atlantic and to create institutions and processes that bring us 
together and compel us to find a common approach.
    That is what we did in NATO in dealing with the Soviet Union for 
over fifty years. We did not have a common view of how to deal with 
Moscow when NATO was formed. But we created a system and backed it up 
with a political commitment to de facto compel us to argue and work out 
our differences until we did. Part of the problem in the Alliance today 
is that we spend too much time focused on and preparing for what we are 
going to do when we disagree, and not enough time on how to ensure that 
we can agree and work together. Instead, we should be looking at ways 
to adapt or build new structures across the Atlantic and with the EU 
that ensure that we are on the same wavelength in dealing with new 
challenges in the future.
    Mr. Chairman, I have not yet mentioned National Missile Defense 
(NMD). It is obviously a key issue in the U.S.-European relationship 
and how it is handled will have a major impact on NATO. I recognize the 
growing threat we face from rogue states, the need to better defend 
ourselves and our allies from such threats in the future as well as the 
need to reconceptualize how we think about offensive and defensive 
systems and strategic stability in the future. There is no better issue 
that highlights NATO's own need to retool than the Weapons of Mass 
Destruction (WMID) threat.
    But I hope my statement here today has also underscored that we 
have other key issues on the U.S.-European agenda as well, and that 
NMD, while important, should not be allowed to crowd out or undercut 
the agenda I have laid out today. A healthy strategic Alliance with 
Europe is as important for the United States as ever before. We are in 
the midst of perhaps the most important and far-reaching transition in 
NATO's history. While the foundation for this transition has been laid, 
we must continue to lead and to invest in this Alliance if we want this 
transition to come out right and the Alliance to be as strong and 
effective in dealing with the problems of the future as it has been in 
dealing with the challenges of the past.

    Senator Smith. Ron, Jeff, I think you called them annexes 
that Prime Minister Blair was not familiar with or had not read 
that were antithetical to the kind of NATO that you say--you 
are familiar with the details of what they are close to 
agreeing on actually would be workable. I think that is what I 
understand you to say, Ron.
    Dr. Asmus. I left the administration in February so I have 
not followed the ins and outs of the debate in the run up to 
the Nice Summit as closely as I used to, but I think that if 
you went to Europe today and somehow could take the public 
opinion poll of the political elite, the parliaments and said, 
I think the vast majority of Europeans, would say, look we 
realize that we are in this together with the Americans, and 
that when the Americans want to be involved we much perfer to 
act with the Americans.
    I think there is a consensus on this. Where I think there 
are different views in Europe is the degree to which Europe 
feels overwhelmed or dominated by the United States, the degree 
to which they feel the need to assert and organize themselves 
because they feel their views are different from ours. There is 
a real divide among European countries in terms of how close 
they want to be to us and how much distance they desire. We 
have tried to build a coalition within NATO and to encourage 
those countries in the EU who are pro-Atlanticist to steer this 
project in a direction that is pro-Atlanticist. I doubt if any 
Prime Ministers of Europe actually have read the Nice annexes 
and I'm not sure how important they are.
    Senator Smith. Well, they are important if nobody gets in 
charge----
    Dr. Asmus. Senator, what is important is that, when we sit 
down with our NATO allies, that the language is clear and that 
we as NATO and the EU have a system and set of structures that 
work. And I believe, based on my knowledge from having been a 
part of the process and having talked to people since I left, 
that there are still some very important details that need to 
be ironed out, particularly when it comes to Turkey and its 
concerns.
    But I also believe that we have firmly anchored NATO's 
right of first refusal in this document in a way that is 
adequate for U.S. interests. There are a series of political 
understandings that we should be comfortable with on the 
technical level. I am not familiar with all of the Nice 
annexes. I am not saying they are not important, but I would 
look at the language that we in NATO have negotiated and that 
everyone else has signed up to.
    The best way for us to get this grand project--Europe--
steered in the right direction and docked safely in the right 
port is, in my view, for us to be clear that our goal is a 
strong Europe with a close relationship to the United States; 
that we support European integration but want it to be pro-
Atlanticist. I think we win hands down, if you take that 
argument to Europe. But we have to be careful that our 
criticism is not used both by people who have a definite agenda 
to say, see the Americans, their real agenda is to keep Europe 
impotent, weak, and to dominate us.
    Frankly, part of the problem here is that the United States 
has had such a phenomenal decade of growth and innovation in 
technology that we sometimes underestimate how overwhelming we 
seem in Europe. I remember aq conversation we had when I was in 
the State Department with Secretary Albright and Deputy 
Secretary Talbott. We were having a heart-to-heart with a 
senior official of one of our closest European allies, one of 
those honest talks where we throw everyone else out of the room 
and say, what the hell's really going on here. Why are we seen 
as this big hegemon and what is your advice on what to do about 
it. And this person, who both of you know, but whose name I 
won't reveal said: ``be firm but nice.''
    It sort of captured the current mood: they want us there, 
they want our leadership, they are feeling dominated by us and 
they are trying to organize themselves to get their act 
together. And there are different views in terms of how much 
distance or closeness they want. The quality of American 
leadership, as I think both of you have suggested, is going to 
be key because if we get it right, they will stay with us.
    Senator Smith. At the end of Jeff's testimony, I expressed 
disappointment in the Blair/Bush meeting in that it seemed that 
to get along they were overlooking details, but maybe you are 
telling me I should not be disappointed because they were 
really looking at the grand political objective of keeping it 
together, then we will work on the details.
    Dr. Asmus. I think that the views of the government of 
Prime Minister Blair and our own are almost identical on ESDP 
and ESDI. We do not have a problem with the British view on 
this. As someone who served the Clinton administration, I was 
perfectly comfortable to see President Bush essentially 
reaffirm continuity in thios area. I think we have got to nail 
down the final details, and I do not want to say they are not 
important, because they are. But I think, particularly as you 
consider about what the committee can ans should focus on, I 
believe the bigger political question is, how we ensure that 
when we sit down and deal with the four or five top questions 
with our allies, we agree not only on wich committees or panels 
should discuss, but what we want to do. In some ways, that is 
the harder challenge we have to creatively think about.
    Some people will say well, we will never agree on an issue 
like Iraq, or we will never agree on how to handle Russia. 
Baloney. We did not agree on Russia many times in the last 50 
years, but we had a political commitment. We disagreed with 
Margaret Thatcher on Russia, but we had a political commitment 
and a system that forced us to hammer out a common strategy. We 
need to keep and build that system to expand and to address 
these new issues as well. I come back to my earlier question of 
what the right framework will be. Is it going to be the 
transatlantic framework that we turn to in order to resolve 
these issues? Or is it going to be the EU/U.S. framework? Or is 
it going to be something new? We are setting a precedent and 
creating a pattern, so in addition to working out the details 
at the level of assistant secretaries, we also have to consider 
the bigger strategic picture.
    Senator Smith. Ron, you have given us a very helpful 
suggestion and I want to try it out on both of you and that is 
to see this issue from a European perspective, which is America 
is this hegemon and is dominating everything and that we need 
to be big enough to allow them some elbow room to feel their 
way awhile and work out the details and not be distracted by 
the annexes that say to me, well this is where we diverge and 
this is where we come apart. Maybe we should withhold judgment. 
Is that what you are saying?
    Dr. Asmus. Well, I think that the people who have succeeded 
me at the State Department should be tough as nails in 
negotiating the details and getting them right. Politically, I 
think we have to be generous in terms of recognizing Europe's 
vocation and effort to build an integrated Europe that can be a 
partner. The two are not contradictory. Most people understand 
the argument that we have learned the lesson of the last 
century of history, namely that when the United States and 
Europe stick together we get a lot done and we are both safer.
    Similarly when we go separate ways, in contrast, neither of 
us is as successful. I think we will still win that political 
battle. It does not mean you cannot fight hard when it comes to 
these EU annexes. That is what people like me do for a living 
and should continue to do. We should continue to defend our 
interests and, frankly, I do not think the Europeans will hold 
it against us. They expect us to fight hard on the details. But 
as Americans we sometimes have to step back and look at the 
bigger picture, and think about our longer-term stake in 
helping Europe succeed. The greatest danger to our interests 
would actually be that this European project would fail and 
Europe would fall back into a cycle of greater recrimination, 
finger-pointing and more weakness. We need a stronger Europe. 
If done right, ESDP can help build a stronger Europe in 
partnership with us--but, again, we have got to get the details 
right.
    Senator Smith. And without this vehicle, they may not fund 
it, they may not be as committed to it.
    Dr. Asmus. That is true. We will see--I mean, the argument 
that using Euro-pride to increase defense budgets will work is 
still a hypothesis that remains to be proven. I am willing to 
give it a try because I am willing to give anything a try to 
get them to spend more money on defense, but let;s see what the 
results are. I do think we have to be very careful about is 
that we do not articulate our concerns in a way that 
contributes to a sort of backlash against us in Europe.
    Senator Smith. I am going to turn to Senator Biden now, but 
I am going to ask in the second round as to NATO expansion and 
different ways of doing it, big bang theory or some others that 
are out there and get your recommendations.
    Senator Biden. I would suggest you keep going, Mr. 
Chairman, but maybe the few questions I have sort of follow on 
from what you have just been talking about. You know there is 
an old expression, ``be careful what you wish for, you may get 
it.'' I must tell you, Jeff, my greater concern is what is 
going to happen here if the Europeans succeed in the modest 
headline goal of 50 to 60,000 forces. I think that is just 
going to play a sort of drum beat among a number of Republicans 
and a minority of Democrats who are basically either 
unilateralists or isolationists saying Europe can take care of 
it--they have their own force. That is what worries me the most 
because then I think things begin to unravel.
    Good news, from my perspective at least, I just picked up 
off the Net: Secretary Powell, speaking in Brussels today. 
Powell said the United States would participate in whatever 
action NATO believed is necessary to ensure that alliance. The 
United States would continue its presence in the region as long 
as NATO knows, ``The United States is committed to peacekeeping 
in the Balkans,'' he said. ``The simple fact is we went in 
together and we'll come out together.'' I think that is a very 
strong and very useful statement for him to make.
    And Dr. Gedmin, I want to acknowledge that the points you 
made about the generational changes that have taken place in 
Europe and here. But it seems to me, and I wonder what your 
view on this is, that there is one overriding truism that 
almost all Europeans of all generations still understand and 
that is that Europe has not reached a point yet in a matter of 
significant crisis where one nation among them could lead. 
Where there is a likelihood that could another Desert Storm 
could be organized by the French or the Germans or the Brits or 
anyone and I do not mean to belittle any one of those countries 
and I am not talking about it in terms of their physical 
capability.
    Assume they had the capability to do it. It seems to me 
there still is a realization among all generations of Europeans 
that, although the direction is important and unification of 
Europe is a goal that is worthy of being pursued and the United 
States' role should be diminished relative to that, that the 
bottom line is, there ain't one guy in the outfit that they 
think could handle it. I have never heard any German say, well, 
you know, if this really got down to us having to pull 
together, we would follow the French. Nor have I heard the 
French saying, by the way you know since the Germans have a 
more powerful military, we would follow the lead of the 
Germans. So I find that ther is a counterbalancing weight here 
that injects reality into this, which takes me to where Ron is 
about it being important what we say and how we say it. It is 
very important what the detail is, but we should be generically 
supportive. Could you comment on my observation?
    Dr. Gedmin. By all means, Senator. Thank you. I agree with 
your assessment. Bismarck once said ``that every alliance has 
its horse and its rider.'' You have to have a leader in the 
pinch when you are in a crisis and I have many questions about 
how a common foreign security policy in any foreseeable future 
would work militarily in a crisis, forget about capabilities, 
but politically because they do not have a natural leader. It 
remains to be seen whether they are going to continue to accept 
American leadership in the future even if it is the best thing 
for them. That is what you are suggesting.
    But Senator Biden, you said earlier this afternoon the sky 
is not falling, NATO is not collapsing, that is absolutely 
right. I think what we are trying to do is discern trend lines 
and that is where we are disagreeing on emphasis and trend 
lines among us, Ron and I included. A couple of general 
observations to this, No. 1, I think we Americans do have this 
hegemon problem. We have to have priorities with our allies.
    We cannot go each and every time and beat upon them about 
each and every thing. I think we have to have a lighter touch 
and we have to understand in this renegotiation they are going 
to have relative more power on some things and we are going to 
have less. We want burden-sharing, but they want power-sharing 
and they are going to get a little bit. You know we are giving 
them the keys to the car and they want to drive and they do not 
want a curfew. Well, we have to live with that a little bit.
    Now, at the same time, I quibble a little bit with some of 
the things Ron says. Examples, no, we do not want a weak 
Europe. We want a strong Europe and I am always a little bit 
mystified that Europeans say you are using things to keep us 
down and I am mystified because, if we were on things like 
ESDI, would we bother them so much about capabilities? Would we 
not say, and build institutions for the next two decades, guys, 
if we wanted to keep them down? No, we are doing what is right. 
We are telling them build capabilities.
    No one here, on right or left, wants Europe to be weak. The 
question is what kind of Europe will be strong? Now, I myself 
have questions and reservations about Ron's model. That is the 
prominent European model, that is a deeply integrated Europe 
where liberal democratic nation-states cede more and more 
sovereignty to centralized supernational institutions in 
Brussels. Will that make for a stronger Europe? I am not sure. 
For them, or in partnership for us, I have grave doubts.
    Now, I do not think we should oppose that because it is 
their business how they organize themselves and if we oppose 
it, it is the kiss of death and that is completely 
counterproductive and completely inappropriate. But it seems to 
me we ought to ask questions along the way, be skeptical and 
pose things that we are concerned about, here are things that I 
am concerned about in trend line. No one in Europe today will 
say that ESDP is aimed at weakening NATO. That is the 
politically correct answer. It will strengthen NATO and so I 
want to ask questions like, how will it strengthen NATO? What 
is your vision of NATO? What is your vision for America's role 
in NATO?
    I will give you one example and then I will stop in this 
round. Concrete, theoretical to date, but I would bet my house 
that this discussion is coming. The formation of a European 
caucus in NATO. Now today, you ask, Senator Smith. They will 
say, nobody is suggesting that. I bet my house nobody is going 
to be working on this in the next couple of years. A European 
caucus in NATO, what does that mean? There is a valid point of 
view why there should be a European caucus in NATO. I had a 
British visitor the other day say to me, of course, that is 
what we are about. We are going to get that eventually.

    And I said, why? Well, security is like trade. When you 
Americans sit down with us on a bilateral basis, you are the 
big guy. You have the advantage in that negotiation. When we 
organize ourselves as a block, we create leverage. We even the 
playing field, they are entitled, fine, it is a transaction. 
But I would like us to ask the question now not later. If such 
a development came to be, how would that change the character, 
quality, functioning of NATO, political support for NATO here. 
Example.

    Senator Biden. I am not sure that that is not a construct 
that does not already reflect a reality. The truth of the 
matter is that when we take actions, whether there is a literal 
caucus or not within NATO a European caucus there is a 
practical European caucus within NATO right now, and there 
always has been. We have been able to deal with it, but I am 
less concerned about it, and it drives Dr. Haltzel, sitting 
behind me, crazy. Every time he wants me to focus on ESDP I say 
do not worry about it. And he looks at me and says what the 
hell are you talking about?

    The reason I do not worry about it is that ESDP will not be 
in my lifetime or even my son's lifetime. It will not be in his 
lifetime when France, Germany and England have ceded such 
sovereignty to an organizational structure that they will in 
fact be speaking with one voice on matters of national 
security.

    I cannot fathom that occurring and so, for them to strive 
is fine by me. Today you privately go to the same meetings. We 
attend some of the same meetings. The Germans will walk out and 
say I know we have got to say this for the French, but you 
understand we are with you, do you not? And the Italians will 
say, you know gee, we have got other fish to fry with the 
French and we are going to do this, but keep on doing what you 
are doing.

    I just think that the idea that you are going to have even 
the major powers in Europe all on the same page, in a way that 
is somehow anathema to our interests, is not very likely. But 
that is just an explanation to you, and for the record, why I 
am mostly concerned about the detail. One place I take some 
issue with Wes Clark, I am very concerned about the detail. I 
am very concerned about the command and control structure. I am 
very concerned about whether or not there are organizational 
structures that give leverage that preempt action taken. That 
concerns me a great deal.

    I am less concerned about getting sort of a uniform 
declaration of purpose, a new, or enlightened, or refined, or 
updated notion of what the Alliance is than I am about the 
detail. But I have spoken enough and I really appreciate both 
your testimony and I am going to cease.

    Senator Smith. Thanks, Senator Biden. Gentlemen, just a 
final question on NATO enlargement, the possibility of it and 
the right approach to achieve it, does either of you have a 
recommendation? I have been kicking around this idea of the big 
bang and the Vilnius Nine and let them in and then work out, 
the full accession status. That is one approach. The other is 
just to take Slovenia and maybe one other and just keep it 
going. I do not know whether it is more difficult to do that or 
the other in the U.S. Senate in terms of ratification, but I 
wonder if you have a recommendation as to the right approach?

    Dr. Asmus. I know I have been thinking a lot about this, 
Senator, as I know you have. Today, unlike the early 1990's, we 
have a clearer sense of the contours of the Europe we are 
talking about and the countries we want to include in our 
community--I think it is the Vilnius Nine plus maybe Finland, 
Sweden or Austria if they revisit the issue of non-alignment. 
Perhaps best way to manage this process is to find the right 
way to articulate that at end of the day, NATO is defending 
Europe and this Europe consists of these countries, plus or 
minus those countries who will opt to stay out for their own 
unique reasons; or those countries that are so far away from 
qualifying that they're on a different timeline.

    The reality is that the first round of enlargement about 
Central Europe. It was about Solidarity in Poland in 1981, 1956 
in Hungary, and the Prague Spring in 1960. This next round is 
about defining Europe as a whole. What does Europe whole and 
free really mean? In my mind, it means that NATO, at the end of 
the day, will go from the Baltic to the Black Sea. And the time 
has come to articulate that and let all these countries know 
they are going to come in. While not loosing the performance 
principle.

    We have to keep benchmarks and incentives so that these 
countries continue to move in the right direction without 
setting the bar so high that we make it impossible for them to 
meet it. So where I come out is we should say, for example that 
by the end of the decade, we want to have completed the job of 
overcoming the division of Europe and that we would like both 
the EU and NATO to have enlarged to as many of these countries 
that meet our standards and are qualified. We should then work 
our way back maintain the performance principle, and look at 
how we initiate a process in 2002 that would take us there by 
end of the decade.

    Senator Smith. And when does the Article V guarantee 
attach? At the beginning or at the end?

    Dr. Asmus. I think the Article V guarantee starts when the 
parliaments of the NATO-members, including the U.S. Senate, 
vote. I think that given the strategic environment, we can live 
with a period of a couple of years as we bring these countries 
in and monitor their progress.

    Senator Smith. I rather like that actually, because I think 
we need to say to the world that we are serious and give the 
world time to adjust to the goal of the Transatlantic Alliance, 
which I think is entirely noble.

    Dr. Asmus. Senator, I would like to come back to the point 
of doing this with the Europeans, not against them or over 
their concerns. Europeans have a pretty clear view of what 
Europe is. All these countries have been invited to join the 
EU, for example. If we can find a way of--while respecting NATO 
and EU autonomy and independence and the decisionmaking 
process--articulating the view that at the end of the day that 
we are talking about a community of countries, that we know 
what those countries are and we want EU-NATO enlargement to 
converge and dovetail, that would be a noble achievement. Each 
institution will make its own decisions, but the goal is to 
bring the two processes together and to have alliance between 
Europe whole and free with the United States.

    Once you get that goal and vision right and once you start 
taking misguided ideas about spheres of influence and gray 
zones off the table, then the management of whether Latvia or 
Slovenia or Estonia or Slovakia is in or not in 2002 becomes an 
easier political problem to deal with because you have answered 
the strategic question.

    Senator Smith. Jeffrey, you have got the final word.

    Dr. Gedmin. Thank you, Senator. Then I will split the word 
in two, but I will be brief. Senator Biden, you are right. 
Militarily, crystal clear--I just want to repeat my point, 
which I do not think I have convinced you yet but I will keep 
working on in weeks to come. This business is political in my 
view and it is a trend line in my view. You're right a caucus 
already exists. I simply asked the question, how formal and 
institutionalized can that become and still be in our 
interests? Concrete, the devil is in the details. I would bet 
you a good dinner in Paris, that in our near future Europeans 
are going to address how this common foreign security policy 
will work. I am out of ESDI. I am--bigger picture now----

    Senator Biden. No, I understand what you are saying Dr. 
Gedmin. And some already argue, yeah, we do not have a natural 
leader. You know you do maturity voting on certain issues. 
There will be restrictions.

    Let me give you a concrete example of why we ought to be 
asking questions. We just bombed Iraq with Britain. The French 
did not like it, others did not like it, we bombed Libya in the 
1980's. The French did not like it, others did not like it. I 
would hate to see us in a situation where we are not today, but 
I am just speculating, where we go bilaterally to an ally and 
say we need you, are you with us? And they say we are just 
outvoted. Outvoted? It is in your interest. Well, we signed up 
to something we think on balance gives us more benefits than 
disadvantages and on this one you cannot use our bases and we 
are not flying with you.

    I think that is important, but that is what I meant by the 
detail. In other words, what it is that they actually signed up 
to. I am just reluctant, Jeffrey, to ask questions I do not 
want the answers to right now. In other words, I do not think 
there has been a maturation in their thought process as to 
where that is and I do not want to force them to an answer now. 
I think in the abstract, they will be more inclined to give an 
answer that we do not like to satisfy the sense of unity within 
Europe than they would if we did not ask the question.

    Senator Smith. Throw depleted uranium into that mix.

    Dr. Gedmin. Can I just tell you something that is not 
abstract? The Germans and French, as you know, we share things 
with the British in intelligence and vice versa that we do not 
share with the others, history, culture, temperament, analysis, 
institutional patterns. We do. The Germans and French, by and 
large, want a more deeply integrated Britain within Europe. And 
I can tell you that the Germans and French do not like the 
special relationship stuff and they are going to tell the 
British when you are in with us, more integrated, what the 
Americans give you, you share with us and the Brits are going 
to have to make some pretty hard choices between us and them.

    The other point, and I will let Ron then conclude on NATO 
enlargement, Senator Smith, I would just point to one thing 
Senator Biden broached earlier. I think the Baltic countries 
are the most interesting thing. NATO enlargement is interesting 
and important. We ought to do it. We ought to make it as full 
as makes sense, but I think that is where the rubber meets the 
road within the Alliance and within the context of the 
relationship with Russia.

    And I think we had better think hard and work really hard 
now and not later to make sure that we are working with the 
Russians to avoid any pretext they have about Russian minority 
concerns or others. And we ought to work with the Europeans on 
how it is we think we can do this and not damage the relations 
with Russia, but that is the big issue I think.

    Dr. Asmus. Senator, as someone who was in the trenches 
fighting the European caucus or would-be caucus, I just wanted 
to offer a comment. If we are in close agreement with the 
Europeans, this is not a problem. The reality is, you know, 
these are fairly transparent organizations. When I was at the 
State Department, I knew what was discussed in most of these EU 
meetings within minutes of them concluding my cell phone was 
ringing and several European allies who were attending these 
meetings were briefing me on what was being discussed. And more 
than half of those countries agreed with us, if not two-thirds 
of them. They would not agree to a common EU position because 
they wanted to take this issue to the NATO forum to keep their 
options open and where we would be involved could vote.

    Second, there are those countries in Europe who think they 
have too much America, and those who do not think they have 
enough America. Many of the countries seeking to join our 
institutions want more, not less America. I think that if my 
French counterparts were here testifying, they would have a 
long story about how difficult it is to build a European caucus 
because so many of these countries want to do this with us, not 
without us.

    We cannot prevent the Europeans from having dinner together 
before a NATO meeting to coordinate their views. What you can 
do is make sure we are on the same wavelength.

    Senator Biden. What you can do, if I understand Jeff, is 
that you can impact whether or not there is a formal written 
agreement with the Brits, with the Germans and the French 
saying whatever you get we get as opposed to them having dinner 
and asking and I think there is a distinction with a 
difference. There used to be a song when I was a kid in high 
school. It was called ``Timing.'' Tick-a-tick-a-tocka, timing 
is the thing and that is it. This is all about timing as far as 
I am concerned. When to ask these questions? What answers you 
want to get? I do not like asking people questions when I know 
I am going to get the wrong answer now, when I have a chance to 
maybe affect what their answer may be. That is the only generic 
point I was trying to make.

    Senator Smith. Gentlemen, we thank you very much. We are 
adjourned.

    [Whereupon, at 12:45 p.m., the subcommittee was adjourned.]


</pre></body></html>
